<html>
<title> - ASSURING THE NATIONAL GUARD IS AS READY AT HOME AS IT IS ABROAD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     ASSURING THE NATIONAL GUARD IS AS READY AT HOME AS IT IS ABROAD

=======================================================================

                                (110-45)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
35-927                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hoell, Doug, Chairman of the National Emergency Management 
  Association, Emergency Management Assistance Compact Committee, 
  and Management Director of North Carolina Division of Emergency 
  Management.....................................................    28
Paulison, R. David, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security........................    28
Sidwell, Major General King, Adjutant General, Missouri National 
  Guard..........................................................    10

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    48
Mica, Hon. John L., of Florida...................................    49
Walz, Hon. Timothy J., of Minnesota..............................    55

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hoell, Doug......................................................    56
Paulison, R. David...............................................    64
Sidwell, Major General King......................................    77

                       SUBMISSIONS FOR THE RECORD

Norton, Hon. Eleanor Holmes, Representative from the District of 
  Columbia:

  National Governors Association, letter to President George W. 
    Bush.........................................................     3
  Adjunts General Association of the United States, Roger P. 
    Lempke, Major General, President, AGAUS, letter to Rep. 
    Norton.......................................................    52
[GRAPHIC] [TIFF OMITTED] T5927.001

[GRAPHIC] [TIFF OMITTED] T5927.002



    ASSURING THE NATIONAL GUARD IS AS READY AT HOME AS IT IS ABROAD

                              ----------                              


                          Friday, May 18, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chairwoman of the Subcommittee] Presiding.
    Ms. Norton. Good morning, and welcome to today's hearing. 
This hearing responds to serious issues that have been raised 
by Governors of several States and by the Commission on the 
National Guard and Reserves and, increasingly, by others 
throughout the Nation about the Nation's ability to respond to 
disasters and emergencies at home as well as the ability of 
States to defend themselves in case of terrorist attacks or, 
for that matter, during civil disorders.
    Today we will take testimony that asks directly whether the 
National Guard is as ready at home as it is abroad. There have 
been a number of reports that National Guard units and 
equipment that would normally be used to respond to disasters 
at home have been sent overseas, to the conflicts in Iraq and 
Afghanistan, creating hardship at home. Equally troubling are 
reports that some National Guard units are being told to leave 
their equipment overseas for other military units, depriving 
Guard units headed home of needed equipment that possibly--of 
equipment, excuse me--that possibly is needed stateside.
    Today we will have witnesses elaborate on these issues and 
hopefully identify areas where all involved can take action to 
resolve these concerns. This hearing is timely and necessary as 
the hurricane season begins. The National Guard is a mainstay 
for more than 3,000 communities throughout the United States 
for disasters and emergencies, including those declared by the 
President as well as less serious events that do not receive a 
Federal declaration. Guard units play a lead role in home 
States and support neighboring States through various 
mechanisms, including the Emergency Management Assistance 
Compact.
    For example, today we will hear from Doug Hoell, Director 
of the North Carolina Division of Emergency Management. 
Frequently over the years as hurricanes approached the Florida 
Keys, the North Carolina Air National Guard almost routinely 
sent a special plane to Florida to evacuate hospital patients 
in case of the threatening storm. Federal, State and local 
emergency managers always work closely with the National Guard 
on a day-to-day basis; 18 State emergency management agencies, 
for example, are either in the State military department or 
report to the State adjutant general who is, of course, the 
commander of the State National Guard.
    The indispensable role of the National Guard in hurricanes, 
floods, earthquakes, tornadoes, and other disasters that we see 
every year is as important at home as the role that the Guard 
is now performing in Iraq and Afghanistan.
    After 4 years at war, in which the Guard has participated 
in unprecedented numbers, it is time to inquire whether the 
National Guard is available and prepared to do the necessary 
job at home as well.
    I am going to put into the record a letter signed by all of 
the Governors of the States, a letter written to the President 
in February 2006.
    In this letter, the Governors indicate that the National 
Guard members have provided nearly 50 percent of combat forces 
in Iraq, and, as well, the bulk of the U.S. personnel in the 
Balkans and the Sinai Peninsula.
    I want to quote from the letter I am going to put in the 
record. "fulfilling the mission of the National Guard at home 
and abroad requires both manpower and equipment. Unfortunately, 
when our National Guard men and women return from being 
deployed in foreign theaters, much of their equipment remains 
behind. Attention must be paid to reequipping National Guard 
units with the resources they need to carry out their homeland 
security and domestic disaster duties while also continuing to 
fine-tune their wartime mission competencies."
    I am going to put that letter in the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5927.003
    
    [GRAPHIC] [TIFF OMITTED] T5927.004
    
    [GRAPHIC] [TIFF OMITTED] T5927.005
    
    Ms. Norton. And I want to indicate that Congress is 
considering moves to curtail the power of the President over 
the Guards and decry the Defense Department to analyze how 
prepared the country is for domestic emergencies.
    Recently we have had a dispute between the administration 
and the Governor of Kansas, who--which you may recall was the 
most recent disaster in Greensburg, Kansas, where effectively 
an entire town was wiped out, and the Governor complained about 
the lack of National Guard that she regarded as understaffed 
and underequipped.
    Governor Chris Gregoire of the State of Washington has said 
that when his State experienced wildfires, key segments of the 
Washington State National Guard was deployed in Iraq. He says 
that the equipment shortages have sometimes left the State 
struggling even to adequately train those who were left at 
home.
    The letter came because when the Governors had their 
meetings, they found that many of them had the same complaints. 
The Congress has got to pay attention to these complaints. The 
Governors are now doing a great deal more of sharing among 
themselves than they have traditionally done. And the fact is 
that the administration has asked Congress for $22 billion more 
for the Army National Guard over the next 5 years. However, the 
GAO has said that it is concerned--and here I am quoting from 
the GAO--that this equipment may be deployed to meet overseas 
demands.
    Those demands have to be met, but we have got to somehow 
make sure we replenish the supplies at home, considering that 
what we know will happen every year, what we are sure will 
happen every year, are a fair number of natural disasters 
because of the landmass and the climate of our country.
    The GAO in 2005 found that almost every State's National 
Guard had a fraction--had only a fraction of the equipment it 
was supposed to have. The GAO said, and I am quoting here, "The 
high use of the National Guard for Federal overseas missions 
has reduced equipment available for State-Led domestic needs."
    Recently there was testimony in the Senate by the top 
commander of the National Guard, Lieutenant General Steven 
Blum. He testified that the continuous use of National Guard 
forces overseas has--and here I am quoting him--"resulted in a 
decline of readiness for units here at home."
    A large part of the problem has to do with equipment, not 
only personnel that is shipped abroad. Among the States worst 
off are Arizona, which has just 34 percent of its allotted 
equipment; New Jersey and Idaho have just 42 percent of 
allotted equipment; and Louisiana, where you might expect more 
equipment now to be on hand, remains at less than 50 percent of 
its allotted equipment.
    The problem stems also from the fact that the Pentagon does 
not, as a regular matter, measure the equipment readiness of 
nondeployed Guard forces for their domestic missions. There you 
can see a great big hole. What you don't know will certainly 
hurt you. So now there is increasingly a push for information, 
how to collect this information so that we at least have some 
record nationally of what is needed, the way we of course have 
of our Armed Forces that are used abroad.
    The dependence of States, increasingly on neighboring 
States, also has been found to leave much to be desired. An 
example recently, again from the State of Washington, found 
that during that fire, many neighboring States have had severe 
equipment shortages as well, so much so that they were unable 
to borrow equipment from those neighboring States. This is an 
issue that deserves our most serious attention. And I am 
pleased to call upon our Ranking Member Mr. Graves for his 
remarks.
    Mr. Graves. Thank you, Madam Chairman. I appreciate very 
much and I appreciate the witnesses all being here today. And 
thank you for jumbling around the order, Administrator 
Paulison, I appreciate that.
    We are here today to talk about the National Guard's role 
in disasters, and in particular I want to thank Major General 
King Sidwell, the Adjutant General of Missouri's National 
Guard. Major General Sidwell began his military career more 
than 33 years ago and has served as Adjutant General of the 
Missouri National Guard since January 27, 2005. As the Adjutant 
General, he ensures the Missouri National Guard is trained, 
equipped and resourced to deal with its dual State and Federal 
mission.
    He is also responsible to the Governor for the State 
Emergency Management Agency. The Missouri National Guard has 
done a great job in responding to disasters. And this has been 
the most active disaster year for Missouri in the last decade. 
The National Guard has responded six times in the last 13 
months, and they are doing a tremendous job, in my opinion.
    With the recent floods in my district, I have seen 
firsthand the important role of the National Guard during 
disasters. Just over a week ago, I was sandbagging on the 
Missouri River, along with National Guard troops, to keep 
floodwaters from coming into downtown St. Joseph. Just a decade 
ago in the big flood, I was sandbagging with National Guard 
troops up and down the river and some of the tributaries.
    National Guard forces across the Nation have a dual 
mission, the warfighting mission and role as emergency State 
responders. When local resources are overwhelmed during a 
natural disaster, that is when the National Guard obviously is 
out there. The Federal Government needs to make sure that they 
have the resources for both of these missions. This needs to be 
a priority. If they don't have what they need, let's make sure 
they can get it.
    I want you to know that I am here to help and we want to 
make sure that you do have everything you need. In most 
disasters, the resources of the State are adequate. However, in 
large disasters like Hurricane Katrina or a New Madrid 
earthquake, which is what we are always talking about in 
Missouri, the State resources will be overwhelmed. In these 
situations, the critical issue becomes, how does the Governor 
get the resources he or she needs at the right place at the 
right time in the State?
    There are two ways to get the needed resources. First a 
Governor turns to other Governors to request resources like 
National Guard troops and equipment, due to the Emergency 
Management Assistance Compact or EMAC. Second, the Governor can 
request Federal resources, like the Department of Defense 
resources, through the Federal Emergency Management Agency.
    During Hurricane Katrina, the first process worked 
incredibly well. The second didn't. Approximately 50,000 
National Guard forces were put in the command of Governor 
Barbour and Governor Blanco through EMAC. Under the second 
process, significant Active Duty forces did not arrive until 
after the Superdome and the Convention Center were evacuated. 
It took too long and it was not clear who was exactly in 
charge.
    Our Committee's reform legislation enacted last year 
improved both of these systems. First we authorized additional 
funding for EMAC to implement the lessons learned from 
Hurricane Katrina to make a good system even better. 
Additionally, we changed the Federal process in two ways. We 
required FEMA and DOD to work out, ahead of time, the jobs DOD 
would be requested to carry out during a disaster. We also 
required the DOD to assign permanent Defense coordinating 
officers to each FEMA region so that National Guard forces and 
FEMA personnel in each region would know who to request 
resources from during a disaster.
    Again, I am here to help to make sure the National Guard 
forces have what they need, and, when forces are overwhelmed, 
they have a fast and effective way to get what they need when 
they need it, whether it is through other States or through the 
Federal Government.
    Again, I thank the witnesses for being here. Thank you, 
Madam Chairman.
    Ms. Norton. Thank you very much, Mr. Graves.
    Ms. Norton. Mr. Carney, do you have an opening statement, 
any remarks you would like to make?
    Mr. Carney. Thank you, Madam Chair.
    I want to thank you for holding this hearing today. The 
readiness level of the National Guard is an extremely important 
topic, obviously, with far-reaching implications. The National 
Guard plays a vital role on protection of property and lives 
right here at home. The brave and selfless men and women who 
make up the Guard units are ready at a moment's notice to help 
their fellow Americans in times of natural disaster and indeed 
man-made disaster. We should do more to commend them for their 
efforts, certainly.
    It has been well documented that the National Guard is 
taking on a great responsibility in the fight against 
terrorism, whether in Afghanistan or Iraq, and there is cause 
to be concerned about this deployment, particularly with 
respect to Guard missions here at home. Frankly, I am concerned 
that the National Guard is being stretched too thin, and I am 
worried this is having a negative impact on the ability of the 
Guard to protect American lives here at home.
    Madam Chairwoman, I look forward to hearing from the 
witnesses you have assembled here today about the Guard's 
readiness, particularly during times of natural disaster, and I 
am eager to learn about their views and suggestions about what 
we need to do to adequately address this problem. I yield back.
    Ms. Norton. Thank you very much, Mr. Carney.
    Ms. Norton. Mr. Mica, the Ranking Member of the Full 
Committee, I am pleased to have him here this morning. Any 
remarks, sir?
    Mr. Mica. Thank you and good morning. I am glad to see you 
are addressing a very important issue before our Subcommittee. 
And I am pleased to see that you have these witnesses before us 
that can help us as we look at some of the issues.
    And I heard our Ranking Member's opening comments. I heard 
the Chairwoman's opening comments, and agree with some of the 
statements that have been made. And I think all of us also 
agree that the National Guard has done an incredible job, not 
only the men and women of the National Guard, but their 
families who have sacrificed to put up with the disruption in 
their lives and having their sons and daughters and wives and 
husbands serve us in a time of need.
    I was in Congress during the 1990s when we started 
dismantling the military after the fall of the Soviet Union. 
And our numbers have dwindled and we have become more reliant 
on our National Guard as an important force in taking active 
military action wherever needed. And, unfortunately, it has 
been needed.
    I would say, yes, that our National Guard is stretched both 
in manpower and also equipment. Yes, that we have had 
incredible demands put on the personnel and on our resources in 
the National Guard. I think that it is incumbent on Congress 
the and House of Representatives--our Founding Fathers have all 
appropriations measures start in the House--that we provide the 
resources.
    You know, I have been home in the last few weeks and I 
heard--I met a lot of families, some that have National Guard 
members serving in Iraq and around the globe. And I heard from 
some of the Active military families too. And they said, we 
don't mind sending our folks over here, we don't mind these 
extended missions, but don't leave our men and women without 
the equipment to do the job. They will do the job but don't 
undermine their efforts.
    And I think it is disgraceful that here we are, after the 
Senate voted 93-0 for General Petraeus to take on the mission--
he came here down the hall just a few weeks ago, met with with 
us, said he didn't even have half the surge personnel that he 
needed to get a difficult situation under control--that we have 
not passed a supplemental. The supplemental was loaded down. 
There was a request for $90 billion, of which there is over $1 
billion for the Guard that is still pending; still pending as 
we are sitting here this morning in this hearing.
    So the Congress has the responsibility to give the 
resources. They will do the job, and their families are willing 
to make that commitment.
    For the Guard, I am just checking, they need about $29 
billion to do the war mission, and they need about $4 billion 
for domestic improvements. I checked with the National Guard in 
Florida, my home State. They need about $340 million in 
additional equipment to better meet the warfighting and 
training requirements, according to General Burnette who heads 
our Guard. However, he made it clear to me in checking on our 
readiness that the Florida National Guard is fully prepared to 
respond to domestic emergencies. Of course, Florida, my 
district, was hit with three hurricanes, and they were ready 
and they are ready, according to him.
    And FEMA has also done a good job. They have had some 
problems, but I think with the FEMA Reform Act and the 
leadership that we have, we can do a good job there. I do want 
to say, however, in closing here, that the utilization of the 
Emergency Management Assistance Contract--and that actually 
came out of my area, the southeast region evolved, I was told, 
out of Hurricane Andrew. We can't all have all the resources to 
deal with every huge disaster, but cooperatively between FEMA, 
the National Guard, State and others being ready and bringing 
those resources together, we can do a great job.
    And then there are some States that are better prepared 
than others, as we saw in Katrina. Florida was ready. Florida 
ended up helping Mississippi. Louisiana was not ready. 
Louisiana still has problems getting its act together.
    We had Governor Blanco contrast the leadership, contrast 
the States' readiness. Again I think we can do the job. I want 
to hear where we are with the resources and any recommendations 
to even better improve on the lessons we have learned. Because 
it is important that we be ready but also that we give the 
Guard the resources they need to do the job we have assigned to 
them.
    Thank you. Yield back.
    Ms. Norton. Thank you very much.
    Ms. Norton. Mr. Kuhl, do you have any remarks?
    Mr. Kuhl. Thank you, Madam Chairman, for the opportunity to 
address this body and present some opening remarks. But I am 
one of those people who has heard it all before, and I am not 
about to continue this process. I am anxious to hear the major 
general's testimony so that we can help to accommodate the 
Guard in what they need. So I would yield back my time.
    Ms. Norton. Thank you very much, Mr. Kuhl.
    We are taking one witness out of order. So I am pleased to 
ask Major General King Sidwell, the Adjutant General of the 
Missouri National Guard-- that means the head man in charge, 
everybody--if he would begin his remarks at this point.

  TESTIMONY OF MAJOR GENERAL KING SIDWELL, ADJUTANT GENERAL, 
                    MISSOURI NATIONAL GUARD

    General Sidwell. Madam Chairwoman Norton, Ranking Member 
Graves, and distinguished Members of the Subcommittee, thank 
you for the opportunity to speak to you today about the 
Missouri National Guard's ability to provide military support 
to civil authorities during disasters.
    Eight hundred forty-two members of the Missouri Air and 
Army National Guard are deployed in various theaters in support 
of combat and peace enforcement missions. More than 10,000 
soldiers and airmen remain at home to assist and support civil 
authorities when called. In the previous 13 months, Missouri 
soldiers and airmen have been called upon six times for State 
emergency duty, to expand the capabilities of State, local, and 
Federal agencies to respond to damages or life-threatening 
events resulting from severe storms or heinous criminal 
activity. In each case, we have successfully managed our 
ability to match organized, disciplined, military manpower with 
available military equipment or leased equipment to provide 
essential support to our citizens.
    Reflecting back to Hurricane Katrina and Rita, the disaster 
in the gulf coast in 2005, Missouri National Guard units 
quickly mobilized and responded to the needs of the Governors 
of Louisiana and Mississippi, deploying more than 2,200 trained 
and equipped soldiers and airmen within 72 hours after 
receiving the call. When Missouri's Governor Matt Blunt 
declares an emergency, he brings the full resources and 
authority of all State resources to bear on a State emergency. 
The priority of effort of each agency is directed towards 
saving lives and protecting State and local governments' 
ability to deliver essential services. And then to mitigate 
property damages.
    In the event that capability required does not reside 
within either State agencies or the Missouri National Guard, 
support--Guard or otherwise--can be requested through the 
Emergency Management Assistance Compact EMAC system, as 
recognized by House Joint Resolution 193 of the 104th Congress 
of the United States.
    If the appropriate resources are not accessible through 
EMAC, the correct protocol is to request support through the 
Federal Emergency Management Agency, FEMA.
    In my written statement I speak a little more to the 
processes of EMAC and coordinating use of Federal assets. I can 
speak to each later in this session, if you require. Through 
EMAC, I fully expect my fellow adjutants general, upon the 
authority of the Governors of the 54 States, territories, and 
District of Columbia, will support Missouri in times of need. 
Missouri, like other States, prepares and regularly reviews 
response plans to meet challenges presented by a potential 
spectrum of emergencies ranging from the most likely to less 
likely, but perhaps the most catastrophic.
    Missouri's most catastrophic natural disaster scenario 
occurs with the event of a major earthquake along the New 
Madrid/Wabash fault zone which passes through southeast 
Missouri. We recognize projected devastation of a 6.5 magnitude 
or higher quake, as measured on the Richter scale, will 
immediately overwhelm our ability to effectively respond with 
State needs only to the citizens in the impacted area, which 
could include St. Louis City and St. Louis County.
    The Missouri National Guard, in concert with State 
agencies, regularly assesses our resources resident within a 
State. Our planning process identifies the types and quantities 
of National Guard capabilities required to ensure an adequate 
response.
    I have great confidence in the Chief of the National Guard 
Bureau's commitment to fairly allocate the requirements of 
current and future natural operations among the States so that 
each State will retain adequate capability to respond to 
disasters at home.
    At the height of Missouri's involvement in deployments of 
supporting missions overseas, we retain more than 59 percent of 
our personnel. We currently have 53 percent of the total Army 
National Guard equipment authorized within the kinds of units 
assigned to our State.
    In my written statement I speak to certain dual-use items 
that we intensively manage to be prepared for the warfight and 
to support needs at home. The National Guard Bureau has worked 
closely with Missouri to honor its commitment to manage 
overseas deployments in a way so as not to unfairly or 
critically degrade our ability to support the citizens in times 
of need.
    In Missouri, the National Guard remains ready, reliable, 
and always there. I am grateful for the opportunity to appear 
before you today and to answer any questions you may have with 
respect to the interface of the National Guard and our civil 
authorities. Thank you.
    Ms. Norton. Our Ranking Member is from Missouri, so I am 
going to defer to him first to ask the first questions. And I 
thank you for that very important testimony, Major General 
Sidwell.
    Mr. Graves. Thank you, Madam Chairman. I appreciate it very 
much. I know that the past year--and I am keenly familiar with 
how many disasters we have had and how many times you all have 
sent out the Missouri National Guard--but I am curious about 
your readiness and your current personnel--your current 
personnel levels and your readiness to respond to a disaster, 
how you feel about that. And basically, you know, what is 
happening in terms of--I know Missouri has got--just like every 
other State, we have got a lot of people deployed, we have got 
a lot of equipment deployed. But if you could talk about any 
disaster you have responded to, has there been a time when you 
feel that you weren't adequately ready for it? Are you 
concerned about that in the future?
    General Sidwell. Missouri is roughly 103 percent of its 
authorized strength by way of personnel. And although we talked 
to the percentage of equipment, which is 53 percent, you have 
to understand the metric from which that is derived. The 53 
percent is from the table of organization and equipment for a 
warfight. So it doesn't necessarily directly correlate to the 
types of equipment you need for a State emergency duty.
    As far as I know, there has not been a nationwide analysis, 
or at least I have not seen one, of those specific items of 
equipment that would be necessary for the national planning 
scenarios that are identified in the National Response Plan. 
For those emergencies that we have faced in Missouri, the 
requirements have been well within our equipment capabilities.
    Another thing that you need to understand in the metric of 
measuring equipment is that prior to September 11 of 2001 the 
equipment readiness was reported in what they call equipment 
readiness code A and pacing items. And in any individual unit, 
there might be four pacing items. So if you reported 75 
percent, you had three of those four.
    Today the equipment readiness levels are calculated 
differently because it is all the equipment across the spectrum 
of equipment that you are authorized. So there are some of 
those line-items of equipment that are not necessary for State 
emergency duty but are necessary for training or for 
preparation for the wartime mission of the National Guard. An 
example of that for Missouri would be that our five readiness 
shortages in equipment, the SINCGARS radio is number one, and 
we are at 54 percent fill. I am advised that we are to receive 
the balance of fill in October of this year. The multirole 
bridge company equipment is 28 percent of fill which means we 
have only one bridge set because there are only four. And, 
quite honestly, those were left in theater, but it is not 
something that is going to significantly enhance my ability to 
respond on a stateside mission.
    Humvees, the up-armored cargo Humvees were at 30 percent of 
fill. But that is not an item. You don't need up-armor in the 
State of Missouri for a disaster. That is something you need in 
theater and it is something you need for training readiness to 
deploy to theater.
    With regard to the family of tactical vehicles, I have 24 
percent, but that is 127 in number. The constraint may be the 
transportation infrastructure as opposed to the number of 
trucks when responding.
    I am also short on my palletized load system trucks, I am 
at 38 percent, but that is 54, so I have almost 180 truck 
transportation for my Guard units to respond to a State 
emergency.
    So there are two things to look at here. One is warfight 
and the other is the domestic mission. My concern with 
equipment more addresses the availability for training for the 
Army forces generation policy that predicts the use of National 
Guard forces in a warfight.
    Mr. Graves. And I have one quick question, too. You know, 
given the relationship Missouri has with Kansas--and I know we 
work together on a lot of different things, but when the Kansas 
Governor was concerned about the shortness of their equipment 
over in Kansas, did they call you all to fill in that gap or to 
help them out over there?
    General Sidwell. We did not receive a call from Kansas. In 
response to some news media issues, I received calls from 
NORTHCOM, the Pentagon, the National Guard Bureau, some of 
which asked, can you help Kansas? We did initiate two telephone 
calls to their operations and training section to see if there 
was anything they required by way of equipment or personnel 
from Missouri. In response to those telephone, calls they 
indicated there was nothing at that time that they needed in 
response from Missouri.
    We do maintain a close working relationship. In fact, 
Missouri and Kansas share the 35th Infantry Division, the 
division is located in Kansas. The commander actually happens 
to be a Missourian, the deputy commanders are Kansas and 
Illinois. So all of us work very closely together in training 
and response.
    Mr. Graves. Thank you. Thank you, Madam Chairman. I didn't 
realize we shared a division with Kansas. But thank you very 
much.
    Ms. Norton. Thank you very much. But your answer, Major 
General Sidwell, may indicate that EMAC isn't working today, 
the emergency compact, the way we might have expected, if only 
because according to the 50 Governors, they all understand that 
they are in the same boat, that everybody is lacking equipment. 
And I wonder if you think there may be some reluctance to call 
upon neighboring States who are in the same boat as other 
States are?
    General Sidwell. My experience is to the contrary. What 
normally happens on--and in fact did happen during the last 
flood--is when we have some sort of natural disaster which 
makes the news media, I immediately get a call from some of my 
counterparts or adjutants generals in other States, 
particularly neighboring States, to ask if they can provide any 
assistance to Missouri.
    The EMAC system I think worked well with the response to 
Louisiana. When I mentioned that Missouri Guard soldiers were 
down there in 72 hours, that was--they were on station in 72 
hours; 48 of that was transportation. We actually flew 
vaccinations so that we could vaccinate the soldiers en route 
and they were fully self-contained for 10 days. So all they had 
to do was receive assignments and nobody had to--all they had 
to do was task them.
    In the EMAC system it involves not just the National Guard 
but other State services and nongovernmental services. An 
example of that would be during Louisiana, I received calls 
from acquaintances who were nongovernmental or governmental who 
said they wanted to help. And I would explain to them that--for 
example, a municipality might call and say, I want to send my 
SWAT team down there, or a trucking owner said, I want to 
provide trucks to Louisiana. And I explained to them that the 
way to do that is that we take their offer of assistance, we 
log it as available resources through our State Emergency 
Management agency, which then communicates to the State 
Emergency Management Agency of Louisiana or identified State, 
and they identify what resources they need and give it back to 
us so that we can send them down there.
    It creates a good working relationship, and my experience 
with EMAC is that it has worked very well. But I have only 
donated by EMAC. I have not had to request out-of-State for 
EMAC. We have been able to handle the emergencies in Missouri 
within our own capabilities without looking outside.
    Ms. Norton. And we are very proud and pleased of the role 
you played in Louisiana, and apparently every Guard was willing 
to do all that was necessary in Louisiana. So it is clear that 
the Guards will do what soldiers always do: go where they are 
needed.
    Your Governor, General Sidwell, signed this letter that I 
mentioned in my opening remarks, and the letter requests that 
the Department of Defense reconsider any proposed force 
reductions in the Guard and work with Governors to reequip our 
returning units. This was signed by all 50 Governors.
    I am wondering how your level of personnel and--I am 
interested in two questions. One has to do with recruitment and 
retention of personnel, and the other has to do with the 
equipment of a kind we have been discussing here. How does your 
current level of personnel and equipment compare to levels, let 
us say, in 2003 or 2000?
    General Sidwell. We are about 1,000 more personnel than we 
were at the time I took over, a little over 2 years ago, as the 
Adjutant General.
    Ms. Norton. You have not had any problems with recruiting 
personnel?
    General Sidwell. We are number two in the Nation in 
recruiting, and I think number six in end strength against our 
authorized. And as far as equipment is concerned, as I 
indicated to you before, I do have concerns about the types of 
equipment that I have available for training for the warfight. 
It is more than an ARFORGEN issue, that is Army Forces 
Generation policy. And in that, the projection is that each 
State would retain 50 percent of its assigned personnel for 
State duty missions, 25 percent would be in the ready phase. 
That is the last stage of training before deployment. And 25 
percent would be in the available stage, which is those who 
would be called upon for deployment. And that has some flex 
either way.
    So the assurance from the Guard Bureau has been that we 
will retain in each State 50 percent of our authorized or, 
rather, are assigned to have available for State missions. And 
thus far our experience is that that has hovered around the 50 
percent range. I think that there may have been a State or two 
that dipped into the 47 percent or 48 percent during times of 
deployment.
    The question, I think probably, when you talk about an 
incident of national significance, such as Katrina was, you 
can't--and the National Guard put roughly 50,000 boots on the 
ground to assist in that response? You cannot equip each of the 
54 States and territories with 50,000 people for the worst-case 
scenario. You have to have, in the parlance of the Army, 
agility to maneuver and the ability to mass at a critical point 
in time.
    Some general once said that if you defend everywhere, you 
defend nowhere. So the ability to mass the response through a 
system like EMAC is very important.
    One of the things that probably would be of great 
assistance to the National Guard, Federal Emergency Management, 
and State and local official is if we had more training 
exercises which integrated the planning and evaluation of our 
plans together. So probably if some funding could be allocated 
to that purpose such as the spills of national significance 
exercise or the "Ardent Sentry" Guard exercises, where you get 
together the principal players, State, local, Federal, to 
interact in their planning as to how to accomplish the task, 
that would be of assistance to us.
    Ms. Norton. That is funding that is not available to you 
now?
    General Sidwell. An example would be the spills of a 
national exercise which is scheduled for June in St. Louis, 
Missouri. The scale of the regional planning has--it has been 
scaled back considerably because of funding constraints. And 
oft times you had a little trouble marrying up the funds in one 
area and another on an exercise. And, quite honestly, one of 
the institutional problems that exists is people tend to 
stovepipe their planning, and FEMA tends to plan FEMA 
exercises, and NORTHCOM tends to plan NORTHCOM exercises and 
the Guard tends to plan Guard exercises. And there needs to be 
an effective integration of all of those.
    Ms. Norton. --needs money. That sounds to me as though it 
needs--the players to get together and do it.
    General Sidwell. There are money constraints on that, the 
availability of money for exercises.
    Ms. Norton. Well, we would be most interested in that, 
because particularly since with all of our needs abroad, we are 
not just talking about natural disasters at home. We are 
talking about preparing for terrorist disasters that could come 
anyplace in the United States. We need to make sure that the 
National Guard is prepared not only in the District of 
Columbia, for goodness sakes, but wherever such an attack could 
occur.
    General Sidwell. Currently the money that is available, as 
I understand it, tends to center around homeland defense as 
opposed to homeland security exercises. They tend not to be 
geared to the disaster response, but the weapons of mass 
destruction scenario, both of which are necessary to secure the 
citizens of the United States.
    Another area that might be of assistance--one of the things 
that was identified in the post--the after-action reviews for 
Katrina-Rita was problems with communication. And when you 
look--on a local level you may have the police department and 
the sheriff's department who can't communicate with each other 
because they have bought equipment at different times, and 
there has not been a standard equipment protocol and cross-
banding.
    One of the items in the news I think you saw in Kansas' 
response is they had gotten a brand-new trailer with cross-
banding equipment which turned out to be a very positive thing 
for Kansas. But there is a significant issue I think across all 
States and territories out there concerning the cross-banding 
capabilities so that the local sheriff or police or the fire 
can communicate with the military or FEMA, and that is--it is a 
focal issue right now in a planning group in Missouri, but 
money is always an issue.
    Ms. Norton. Well, and that--I am on the Homeland Security 
Committee as well, and the consistency of this problem and our 
inability to handle this are perhaps the most troubling post-9/
11 issues that the States continue to raise. We have got to get 
control of that. And it has been very, very difficult. I am 
glad you raised it.
    One more question on communications and other equipment. 
You talk about dual-use equipment in your testimony at page 6, 
and you mention among the dual-use equipment, of course, 
communications equipment, medium and light trucks that you say 
were in short supply before September 11. And you say that you 
are optimistic that the current emphasis on procurement--you 
use the word "procurement"--will enhance our warfighting 
capabilities.
    I mean, are you saying that you expect that we are now 
procuring medium and light trucks and communications equipment 
of the kind you need in Missouri?
    General Sidwell. Yes, ma'am, I am.
    Ms. Norton. Is that at the local level or are you saying 
that some money has been allocated nationally that you expect 
to be available at the local level?
    General Sidwell. For example, a minute ago I mentioned the 
SINCGARS multichannel radio that is being funded. We expect to 
have that fielded to us, the balance to fill us up in 
approximately an October time frame. And that was an issue in 
the Katrina-Rita disaster because the Active component had Sync 
guards. The National Guard did not. And it created a 
communication gap between the two.
    So those things are being addressed at the G-8 level of the 
Army, and I think are being addressed through congressional 
funding items. We just received $6 million for 915 tractors 
this last year, which is a congressionally funded item, and 
there was a report given by the Office of Legislative Liaison 
on 26 February of 2007 which identified in that $4 billion 
needed for the essential TO&E items, and those would be a 
subset of the $23 billion which is being proposed for the 
National Guard over 5 years. And, again, I remind you that some 
of our shortages may be wartime shortages as opposed to 
peacetime response shortages. Those dual-use items of equipment 
are the ones that have been identified by the National Guard 
Bureau to the Army for funding for the National Guard to meet 
State response.
    Ms. Norton. I am going to move to the Ranking Member of the 
Full Committee. I do want to say I indicated in my opening 
response that--in my opening remarks--that the administration 
had indeed asked for, I think it is $22 billion more, for the 
National Guard. I believe that the appropriators are going to 
have to make sure that a fair balance of that equipment is 
retained at home. And they know how to do that on the 
appropriation itself because the GAO said that it is concerned 
that that, or most of that equipment, would go abroad.
    General Sidwell. I believe they have actually instituted 
some new accounting protocols in the G-8 at the Army for 
tracking those items that are funded for the National Guard.
    Ms. Norton. Well, you can track them all you want to after 
it is done. But if Congress allocates money and does not say up 
front that at least a certain amount of money should go to help 
reequip the National Guard at home, the GAO tells us that that 
might not happen. Mr. Mica?
    Mr. Mica. Well, thank you. General Sidwell, you probably 
don't know me very well, but I like to cut right to the chase. 
Probably one of the primary reasons you are here is there is an 
accusation that because of the conflict in Iraq and 
Afghanistan, the war on terrorism that we are engaged in, that 
the Guard is not prepared to address domestic incidents. And, 
quite frankly, you know, we had the Greensburg tornado, and 
there were some questions as to whether you had the resources 
to respond. Did you have adequate resources to respond?
    General Sidwell. That was actually a Kansas issue as 
opposed to a Missouri issue.
    Mr. Mica. Yes.
    General Sidwell. From the standpoint of Missouri in our 
State emergencies, we have had more than adequate resources to 
respond to those which have confronted us.
    Mr. Mica. Okay. And right now you have enough--if you had a 
Greensburg-type incident, you would have had enough resources 
to respond?
    General Sidwell. That is a correct statement.
    Mr. Mica. And then you described the 50 percent 25, 25; 50 
percent domestic sort of reserve, 25 percent readiness, 25 
percent in deployment. And that is adequate? Is that what--and 
what do you have? What are your percentages? Are they similar 
to that?
    General Sidwell. I am sorry, percentages of what?
    Mr. Mica. You said that your force--you divided it up and I 
thought you said that you had 50, 25, 25.
    General Sidwell. That is a promise or a representation. 
"insurance" would be a better characterization of how forces 
would be--the States would be called upon to provide forces.
    Mr. Mica. Forces, what do you have?
    General Sidwell. Missouri is roughly 11,000 end strength 
when I have Army and Air. And I have right at 8,500 Army. And 
you mentioned Greensburg before, that is Kansas. And Kansas has 
about 5,500. They are a little smaller State.
    Mr. Mica. But you are within the range of the 50, 25, 25; 
or are you short?
    General Sidwell. Oh, I am well within--I only have got 142 
deployed.
    [Subsequent to Hearing, General Sidwell corrected the 
following: I only have got 842 deployed].
    Mr. Mica. You said in a couple instances we were below the 
50. I thought you said some 47 or 48, 52 or 53 percent where 
some have fallen below other States. Is that correct?
    General Sidwell. During the high watermark, there was a 
time when the Guard provided 50 percent of the combat forces 
and 40 percent of the total force in theater. And at that time 
from the Adjutant Generals Association--I think you have got a 
letter from General Roger Lempke from Nebraska as part of--you 
were saying as part of the record.
    General Sidwell. Those figures usually--the Guard Bureau 
will come in and review with us to show how each is deployed. 
And, say, a State like Pennsylvania, if they deploy a brigade 
combat team, or an Arkansas with a brigade combat team, that 
gets up close to that 50 percent category because it is a 
sizable unit.
    Mr. Mica. Let me ask you a question. I don't know the 
answer. What percentage of your equipment is paid for by the 
Federal Government?
    General Sidwell. Paid for by the Federal Government? All of 
it. The act of 1903, the Federal Government pays for----
    Mr. Mica. If you aren't getting the equipment, whose fault 
is it? I mean, who is responsible?
    General Sidwell. Well, the funding of the equipment comes 
from the Federal Government.
    Mr. Mica. The Federal Government. And again, we are 
behind--the Congress is behind in funding some of the requests 
that the Guard has made. And I think you have cited figures a 
little bit different than I did. About in the $20 billion over 
a 5-year range and about $4 billion domestically. Is that 
accurate?
    General Sidwell. That is correct. There is a funding 
request, and certainly the representation has been made that we 
wish to have the National Guard fully funded, fully manned, 
fully equipped, fully trained. Now, when that request--and my 
guess is, is that you get other Federal agencies coming to you 
asking you for money. And Congress controls the purse strings 
and determines the priorities. And if you give money for 
equipment for the National Guard, then who doesn't get the 
money that is available? And those tough decisions are the 
tough decisions that have to be made by Congress, and I guess 
that is why you have this hearing today to help you make that 
deliberation.
    Mr. Mica. Thank you. Two final things. One, we heard the 
leave-equipment-behind accusation. What about Missouri? Is 
there a lot of equipment left behind in Iraq, Afghanistan, 
wherever? And if it is brought back, and I know it is a great 
cost to bring it back, is it useable? Tell me your experience.
    General Sidwell. When a unit deploys, oft times the 
equipment which they take, other than small items, will be left 
in theater for the follow-on unit to utilize. And then you may 
either get a backfill for your individual State from the State 
that provided forces for theater, or there may be new equipment 
bought to replace, or, at some point in time, that equipment 
may be returned----
    Mr. Mica. Again, in your situation, are you short equipment 
because equipment was left behind?
    General Sidwell. There is equipment in theater that I would 
have if it had not been deployed to theater.
    Mr. Mica. But you don't have the replacement for that 
because Congress hasn't appropriated the money for it?
    General Sidwell. That is correct. An example would be my 
bridge unit. Their assets were left in theater. And the 28 
percent I had, we went out to get a bridge set to train on.
    Mr. Mica. Okay. Again, just wanted to get the specifics of 
relating to you our operation. Thank you so much.
    I will give you one quick last one, since they are not 
paying attention right now. We have got this little issue of 
who controls the Guard, and we put, actually, ultimate control 
in the President's hands. There is legislation before us now to 
take that out. And I heard the Guard was opposed to having the 
President make the ultimate decision on Guard activation, 
utilization, and wanted it left with the Governors. What is 
your position?
    General Sidwell. That is one of the reasons I wore a 
civilian coat and tie today instead of a uniform, so it 
wouldn't appear as if I represent the interests or the decision 
process of the Department of Defense, because there is a 
difference in views between the National Guard--the Adjutant 
Generals Association and the Department of Defense on that 
issue. We would prefer that it be left with the Governors.
    An example of mobilization that is practical to Missouri is 
when we mobilized for Katrina. I established a State policy 
that I was not going to take my college students out of school 
to miss another semester after they had just come back from 
Iraq. So there was a degree of volunteerism in mobilizing the 
unit. That flexibility would not have been available to me if 
the call-up were on a Federal basis. And I think it is very 
important from a State perspective that we realize that the 
State and local governments are being supported by the National 
Guard and the military, and that the Governor and local 
officials are in charge of the emergency response, because 
ultimately that is who has to answer to the electorate as to 
whether or not the response was appropriate.
    Mr. Mica. Thank you.
    Ms. Norton. Thank you. I think that is a very important 
question, Mr. Mica. We are still trying to sort through that. 
Mr. Carney?
    Mr. Carney. Thank you, Madam Chairman. Just a couple quick 
ones right now. I grew up just north of you, in Iowa, and I 
recall the floods of 1993. Does Missouri have the capacity now 
to respond to a 1993 flood-type situation?RPTS CALHOUNDCMN 
SECKMAN[11:00 a.m.]
    General Sidwell. Yes, we do.
    Mr. Carney. With the bridging equipment shortage and such.
    General Sidwell. The bridging equipment really doesn't 
provide us an asset that is needed or utilized, or we haven't 
in the past. We didn't use bridging in 1993. It is a more 
labor-intensive operation. We provide security, we provide 
sandbagging, we provide shelter, and those are more labor-
intensive issues. So it is my belief that we--we are actually 
better off today than we were in 1993, equipment wise. The 
metric in 1993 just measured equipment readiness, code A and 
pacing items, so our percentages of equipment are about the 
same, we just happen to be a little bigger.
    Mr. Carney. Did I understand correctly that your manning is 
up from roughly the 1993 time frame?
    General Sidwell. That is correct. Well, the 1993 time 
frame, we are probably about similar in end strength. We had a 
period from 1993 until 2005 where end strength went down and 
nonvalidated pay went up, and we cured that. We also happen to 
be number one in the Nation on people who attend real 
nonvalidated pay.
    Mr. Carney. What do you guys do in Missouri that makes 
everybody want to show up?
    General Sidwell. I think they are proud of their 
organization. I am proud of them.
    Mr. Carney. They should be. I want to come back to the 
interoperability issue for a moment. How severe is it in 
Missouri or if you want to comment from what you have heard 
from your counterparts in other midwestern States? For, 
example, radios, the ability to talk to other responders in 
cases of disaster?
    General Sidwell. I may be a little more robust in cross-
banding equipment than my other counterparts. And we have 
provided some cross-banding equipment to the hurricane region 
and States in anticipation of hurricanes. The interpersonal 
relationships and working together, for example, the State 
emergency management director and I are in the same building. 
We eat lunch together. So the ability to work together is good.
    Our practice has been, during a State emergency, we 
immediately push out liaison officers to the local emergency 
operations centers. And the SEMA liaisons have told me and the 
locals have told me that they find that a very helpful practice 
on behalf of the National Guard. So that works well. But from a 
State perspective, on communications, we have a homeland 
security committee of all the directorates in the State which 
meets regularly and a Subcommittee which is on communications. 
There is a lot that needs to be done in Missouri for local 
officials' equipment to get everybody on the same protocol for 
communications.
    From the standpoint of FEMA, region 7 has been very 
helpful. I go visit with them in Kansas City, they come to my 
headquarters and visit with me. The FEMA representative happens 
to be a former Missouri National Guardsman, so he understands. 
And the Corps of Engineers, Colonel Rossi has been very good 
about communicating their plans for emergency. So I feel good 
about the intercommunication operability that we have. I am 
pleased. I told you that I got calls when we saw the floods. I 
got a call from the Pentagon asking to help. I got a call from 
NORTHCOM asking to help. I got a call from the Defense 
Coordinating Officer asking if they could help. And I thanked 
them and told them, right now, we were well within 
capabilities, but I certainly would go through FEMA through the 
DCO if I needed additional assistance.
    I think Katrina served as a wakeup call to the entire 
Nation, and the degree and synergy of cooperation is much 
greater today than it was 5 years ago.
    Mr. Carney. I am very happy to hear that the upper-level 
decision makers are talking to each other. That is great. My 
concern is, can police and fire and rescue talk to each other?
    General Sidwell. I think there are problems in that arena. 
From a national perspective, we really need to look at the 
protocols that assure that one community can communicate 
adequately with the next community and that firemen and police 
can talk together. I know some local jurisdictions in some of 
the emergencies we have already had, had some difficulties in 
their communication. It is a funding issue. The local 
municipality can't afford to upgrade their equipment, but on 
the other hand, they can't afford not to. So where are you.
    Mr. Carney. I agree.
    Thank you, Madam Chairman.
    Ms. Norton. Thank you very much.
    Mr. Kuhl has assumed the Ranking Member's chair, so Ranking 
Member Kuhl.
    Mr. Kuhl. Moving up the ladder fast here.
    Thank you, General Sidwell, for coming here to testify. I 
wish the entire Nation could hear the optimism that you bring, 
I think, to this hearing, and certainly I think they would be 
pleased to know what you are doing and feel satisfied about 
your current situation in Missouri and the ability to carry out 
the tasks that are your responsibility.
    I just want to explore a couple of questions with you and 
be brief about that because I am concerned that when you say in 
your statement we currently have 53 percent of the total 
National Guard equipment authorized within the kinds of units 
assigned to our State, that if you take that statement out of 
context, it would appear as though you are only half prepared 
to do the job that is your responsibility.
    So I am not so sure, and I just want to reassure myself 
that the statements that you made, that you feel confident that 
you can accomplish the task which you are required to 
accomplish, given the fact that you have 53 percent of the 
equipment necessary or assigned that's authorized, I should 
say.
    I guess my question to you would be, as another way of 
putting it, have you ever in the history of the Missouri 
National Guard and particularly during your assignment had 100 
percent of the equipment that was authorized?
    General Sidwell. No. We were, pre-9/11, about 58 percent. 
That included a lot of authorized substitutes which are not 
authorized substitutes today. For example, back then, a CUCV, 
which is essentially a pickup truck with a radio mount in it, 
was an authorized substitute for what we now call a Humvee, and 
now we require an up-armored Humvee in order to meet that 
percentage of requirement.
    So it is really comparing apples to oranges to look at what 
percentages were. They use a different metric. The metric, even 
at both of them, is a wartime metric, not a peacetime metric. 
And things that previously were concluded in that 58 percent 
would not be included today.
    Mr. Kuhl. So would you be in agreement with me that that 
number of 53 percent is really kind of misleading as to a 
designation of your capability to do your job?
    General Sidwell. It is misleading with respect to response 
to a State emergency issue. It would be accurate with respect 
to a wartime measure of capability for deployment to theater to 
engaged in combat. My 53 percent is above the national average. 
National is 40 percent.
    Mr. Kuhl. Would you recommend that there be two types of 
classifications to better reflect to the general public your 
capability in both of those scenarios of carrying out your 
responsibility?
    General Sidwell. Probably it would be more informative to 
the public for local response if they understood that the 
equipment necessary for a local response is different than the 
equipment measure for deployment to a combat theater.
    Mr. Kuhl. Okay. Good. Thank you. I yield back.
    Ms. Norton. Thank you very much, Mr. Kuhl.
    Mr. Walz.
    Mr. Walz. Thank you, General Sidwell, for taking time to 
come here today. I appreciate your insight. I share a unique 
insight maybe with you on this. I have the unique privilege of 
being the highest-ranking enlisted soldier ever to serve in 
Congress as a command sergeant major. So I wish you would have 
brought one along with you.
    General Sidwell. In a reversal of roles, I salute you for 
that.
    Mr. Walz. So having been someone called up for fire, 
tornados, floods and in support of Operation Enduring Freedom, 
that is something that I look at very closely, how we are going 
to deal with the guard as it assumes a new role and as it 
changes in the new environment we are finding ourselves in.
    Just a couple of things I would note, and in speaking of 
the lack of equipment, it has always been an issue. I am an 
artillery guy who taped Howitzers on the floor and used toilet 
paper roles on the floor to simulate draining. You have seen 
it. So that did happen.
    We have always been in a make-do type of situation, and I 
applaud the Guard because they have already found a way to do 
that, and you epitomize that attitude. We were just discussing 
also that it might also be of note that, Ike Skelton is from 
Missouri, so we don't know because our States are somewhat 
different in that because we are not hearing this across the 
Nation.
    My concern now is for the Nation as a whole but your unique 
perspective, as I would agree with the current Ranking Member, 
there is reason for optimism because, when it is the Guard, 
they will get the job done. I have the utmost confidence in 
them. Our job is to find out how to best maximize the use of 
our resources to make you as effective as possible.
    Your last couple of statements are where I get a little 
concerned, too. I think probably we will make do the best we 
could on statewide emergencies. My concern is, and just a 
couple of questions to you, General, and I know this is 
somewhat subjective, this level of deployment that we are 
seeing, did we ever prepare for that? Did we ever foresee this 
level of continuous deployment and the wear and tear on the 
soldiers, the families and the equipment in general? I am just 
asking you. I know we prepare for all things, but I left in the 
spring of 2005 after having done--seeing this. I never 
anticipated it to this level. So I am just getting your comment 
as we look to the future.
    General Sidwell. The character of the use of the National 
Guard has dramatically changed and in fact the terminology used 
in describing that has changed. Instead of being a strategic 
reserve, where you presume that you would have a long dwell 
time in postmobilization training before deployment to a 
theater, we now have become an operational reserve, and as of 
January 17 of this year, with the changes that the Secretary of 
Defense has made in the regimen of training, much of the 
training that we previously looked to postmobilization is now 
trained and evaluated premobilization in order to shorten the 
postmobilization dwell time at a training station and to 
shorten the overall deployment time for individual soldiers and 
units, and we deploy as units.
    Certainly the Guard of today is vastly different than you 
and I knew when we enlisted.
    Mr. Walz. And I would also say this, I really applaud your 
answer when the Ranking Member of the Full Committee was here, 
on your flexibility, when asked about who should make those 
decisions, your ability to depend on volunteerism or try and 
make the impact spread out a little bit, not felt so heavily on 
those that had maybe 6 or 7 children at home or were in school 
or whatever in trying to do that. I know that has been 
happening across the Nation from the Guard.
    Is the National Guard Empowerment Act in your opinion--and 
I know it is in your opinion, you have got the civilian suit 
on, but you have got a lot of experience--is that going to be 
helpful in some of these issues?
    General Sidwell. It will be helpful. For example, the 4 
Star position should be helpful in making decisions concerning 
priorities for purchase of equipment and allocation of 
resources. Because there is increased responsibility, the end 
strength is about 358,000 in the Army National Guard; 102,000 
in the Air National Guard.
    The joint credit for adjutant general to then go on to be 
able to serve in a joint billet to help integrate the National 
Guard into the total defense force would be of assistance. So 
certainly the impact of the Empowerment Act on behalf of the 
Adjutant Generals Association uniformly support those changes.
    Again, that is not something that is embraced across the 
Department of Defense. I don't want that to be confused as an 
official position of the Department of Defense, and as a matter 
of fact, I think Secretary Gates endorsed a number of the CNGR 
recommendations but not all of the CNGR recommendations, and I 
certainly respect differences of opinion, and we end up with a 
good result when we can accommodate all of the opinions into a 
final decision process.
    Mr. Walz. Well, I would just say, from my perspective, I 
simulated too darn many of those toilet paper charges to not 
think this is important. Just to let you know. I yield back my 
time.
    Ms. Norton. Thank you very much, Mr. Walz. I have only two 
more questions for you, and then I will ask if any other 
Members have questions. We want to make sure we maintain a 
balance here. The letter from General Lempke who of course is 
the major general of Kansas and head of your own association of 
adjutant generals says, and I am quoting him: The Army National 
Guard was never fully equipped. Pre-9/11 States generally 
hovered around the 60 percent range.
    So, in a real sense, when there is a war, then, as you 
said, the General said, well, there is a tendency to look at 
the equipment then and perhaps bring in new equipment. The 
problems we are dealing with here of course is this war is 
going on longer than some have anticipated so the equipment is 
left in the field, perhaps some you would prefer to have at 
home. At the same time, Major General Lempke said unanimously, 
we believe the National Guard's ability to support disaster 
response and recovery is as important as its Federal mission to 
provide trained forces to support national defense.
    I assume you agree with that statement as well. You will 
recall that I think I said the Pentagon has had to help us sort 
this out. We have to get some kind of data base. We have to 
know what we don't know now, which is, how much is equipment is 
out there, so that we can measure how much equipment there 
should be out there?
    We know that equipment may grow old and equipment may seem 
as much not needed when there hasn't been a disaster for some 
time. When there is a disaster, we are all Americans; Americans 
operate on an emergency basis for everything. When something 
happens is when things begin to happen; otherwise we assume 
things will always go well for us.
    He says, however, Major General Lempke says that Lieutenant 
General Steve Blum, who is the chief of the National Guard 
Bureau has devised a list of 10 critical capabilities needed or 
that should be quickly available to each State, he says this is 
perhaps the best measure, at least available now, to assess 
individual State capability from a national perspective.
    Would you agree to that? Are you familiar with this list of 
10 critical capabilities?
    General Sidwell. Yes, ma'am. Those are the items which are 
listed in the essential 10 equipment requirements for the 
global war on terror, which is the Office of Legislation 
Liaison Report of 26 February 2007. Specifically, it is page 5 
of that report. It includes joint force headquarters, command 
and control, civil support teams and force protection, 
maintenance, aviation, engineer, medical, communications, 
transportation, security and logistics.
    General Blum has assured that he will place some, to the 
maximum extent possible, make those capabilities resident in 
each of the 54 States and territories, and it is part of the 
backdrop which provided decision makers with input as to where 
to place units when we went through the restationing and 
rebalance. An example of that would be that, prior to the 
rebalance, I had four engineer battalions in the State of 
Missouri. There were other States who had no engineers. After 
rebalance, I have two engineer battalions, but other States 
that didn't have any now have some engineering effort. So it is 
an attempt to spread that availability to a regional and State 
basis for more rapid response in the State to emergency 
response.
    Ms. Norton. This becomes critically necessary when you see 
the imbalance among the States. You feel you are ready, but as 
I indicated in my opening remarks, if you live in Arizona or 
you were adjutant general there, you had just 34 percent of the 
allotted equipment. You might have a different answer. Or in 
New Jersey where you had just 42 percent.
    What General Lempke does is simply to use his own State as 
a case in point, Nebraska. He said Nebraska is dominated by 
transportation units, but he says I have half of the 5-ton 
trucks authorized. Quote: This certainly limits my authority to 
train and mobilize units. However, even down by 50 percent 
leaves me with nearly 150 trucks to deal with disasters in 
State, a quantity I believe to be more than sufficient.
    So he says that: While his reported readiness level is 
down, my assessment of the National Guard's ability to support 
disasters in State is positive.
    Again, this brings home the importance of some kind of 
measure so that these numbers mean anything to us because some 
layman or some Member of Congress looking at these figures by 
percentage sees the kind of interpretation I am giving to 
Arizona and New Jersey because I don't have any way to evaluate 
what 34 percent and 42 percent means.
    General Sidwell. Yes, ma'am. What further exacerbates that 
problem is, for example, in Missouri my Army strength is 
roughly 8,500. In Nebraska, their Army strength is 3,500. They 
are not terribly different in geographic land mass than I am. I 
am different in population and recruiting and the size that may 
be allocated to, in the end structure, allocated to any 
individual State impacts how they may respond to a local 
emergency. For example, your district of D.C. is roughly 1,146 
on Army. So, certainly, I have got greater ability with 8,500 
than you do with 1,146.
    Ms. Norton. But you are a State; we are a city. But can 
people out of State belong to your National Guard across State 
lines.
    General Sidwell. That is actually a common practice. We 
find that a number of Missourians will be in units in an 
adjoining State. For example, for me, I don't have infantry in 
the State of Missouri. I am a combat service, combat support 
State. A lot of individuals who wish to enlist as an 
infantryman within 11B may go across to Arkansas or Illinois or 
Kentucky, and by the same token, I have soldiers who have come 
across the State line to belong to the Missouri National Guard. 
The National Guard is more tightly geographically contained 
than the United States Army Reserve, which will typically have 
a unit that will cross several States and you may have people 
traveling 500 miles in a Reserve unit for a drill. 
Theoretically, a Guard unit should be roughly in a 75-mile 
circumference for manning. As a practical matter, I may have 
people who travel 150 miles.
    Ms. Norton. But it is their choice; isn't it?
    General Sidwell. Yes, ma'am, it is.
    Ms. Norton. We are proud to have members, citizens from 
Virginia and Maryland in the D.C. National Guard, and of 
course, they would tend to be from less than the 75-mile 
radius. But that suggests that some of them of course may do so 
because of the kind of specialty that is available, but it 
suggests that members of the Guard understand the regional 
basis makes sense and makes me wonder whether or not the Guard 
itself, particularly after Katrina, ought to be organized on a 
more regional basis. Some of those ideas come from your own 
testimony.
    General Sidwell. I probably would take issue with the 
regional basis organization.
    Ms. Norton. I am not saying break down the State unit, sir. 
I am not trying to reorganization what the country began with, 
which was every State had a militia and from there grew the 
National Guard. But one wonders about whether or not, assuming 
these are discrete units that ought to be having a discrete 
amount of equipment. I mean, does it really make sense for 
Uncle Sam to say that every State ought to have a certain 
amount of equipment even though we know different things about 
how the States operate and what kind of disasters come as 
opposed to assuming certain kinds of sharing where we might be 
able to replenish more easily.
    General Sidwell. That is the function of the National Guard 
Bureau. They, in fact, allocate structure among the States and 
take into account that regional response, ten essential 
capabilities so that you have those essential ten items 
regionally available and accessible. They may need to access 
those through an EMAC, but they are geographically dispersed 
throughout the country to try to level the ability to respond 
among the States and territories as opposed to solely being 
resident in one State.
    Ms. Norton. Very good. The final question, for me at least, 
has to do with the National Guard Reaction Force. Would you 
tell us about this? It sounds like a more supple kind of force 
that is more generally and quickly available. Would you tell us 
whether you have such a force, what the difference between that 
force and how it is composed and the guard itself?
    General Sidwell. There is what is referred to as a CERF, 
which is to be a rapidly accessible force to do essentially a 
search and rescue type of mission, which I believe is--I have 
one in Missouri, and I believe it is residents in each of the 
54 States and territories. There are some funds that are 
allocated separate from our normal funding to train that force. 
It tends to be, or at least in my State, the people who make up 
that CERF mission come from different units. I think it is 
still a process in maturation as far as its development and how 
rapidly it deploys.
    For example, General Blum and some of my counterparts, I 
was not able to go, visited Israel not long ago to see how they 
do their rapid reaction, and they in fact put pagers on 
individuals so that they get paged and report to the scene of 
the incident, whereas our construct is we bring people into the 
armory and then send them from the armory to the incident.
    Those are things that we continue to explore as ideas of 
ways to improve the process, but we have identified individuals 
who are on that CERF for rapid reaction and can be called to 
respond to a localized event.
    Ms. Norton. For lack of a better analogy, kind of like 
Special Forces that go--that the Army uses when they have 
critical missions, that they pull people out and send them in 
with the Special Force Operations?
    General Sidwell. Certainly they have special training to 
address those issues, but I would remind you. And I think it is 
a wise construct in the national response plan that the first 
response to a local emergency is the local civilian responders 
and then the National Guard when it exceeds that capability or 
the State's capability can be called to assist.
    An example of planning would be, in my earthquake, cracked-
earth scenario, I do not place a great deal of weight on my 
soldiers who happen to be near the epicenter of the event 
because I think they have got to take care of their own 
families so I look to those more heavily to those outside the 
epicenter as the responding force to provide assistance.
    Ms. Norton. Thank you very much, Mr. Sidwell.
    Mr. Kuhl, any further questions?
    Mr. Kuhl. Nothing further.
    Ms. Norton. Any further questions?
    Mr. Carney. Yes, Madam Chair. One more. General Sidwell, I 
really do appreciate your candor and your comments this 
morning. I feel very good about the Missouri case. It is great. 
I read this morning with concern an article in the Harrisburg 
paper, and I want to get your impression on this, if you have 
noticed this in terms of what has gone on in the Missouri Guard 
or if you have heard other anecdotal information on this, that 
you are losing soldiers because of employment issues.
    I want to read this little passage from the paper this 
morning. It says, about 54 percent of employers surveyed said 
that they would not knowingly hire members of Guard or Reserve, 
though they know that would amount to discrimination, because 
of disruption and cost to the employer.
    Have you noticed that having an impact on certainly the 
Missouri Guard?
    General Sidwell. I think that an impact has existed for a 
long time. I have been in for about 34 years, and that impact 
has been there for 34 years, where an employer, especially the 
small employers, not as much the large employer as the small 
employer, when I take a third of somebody's workforce for a 
mobilization, it is catastrophic to that employer, and 
certainly, they are not supposed to, but they do take that I 
think into consideration when looking at employing somebody who 
is in the National Guard.
    I believe there are things that can be done to help address 
that on a national level. Sometimes an employer may be 
motivated by patriotism, and I am certainly grateful to a lot 
that the employers have done out there, but the Congress may 
wish to consider some type of tax credit or incentive with 
respect to a guardsman who is deployed. It may be that in the 
health care, since there is TRICARE available to guardsmen, if 
it is not, if TRICARE is the primary carrier instead of a 
secondary carrier, then an employer may look more favorably on 
a guardsman because it could reduce his costs. An employer has 
got about a third of his costs tied up in employee benefits 
when he has got an employee out there.
    So it may be when some of those benefits are available to 
the prospective employer through their National Guard service, 
that employee becomes a more attractive employee to the 
employer in the hiring process.
    Mr. Carney. I certainly understand that, but have you 
noticed, because of employment issues, in the Missouri Guard a 
loss of personnel?
    General Sidwell. It is hard to identify one-for-one. Nobody 
is going to raise their hand and say, it is employment issues, 
because they are going to have a USERA problem. So you have 
losses which may be employer issues that may be identified as a 
different issue when you do an exit interview with that 
employee. And certainly no employer is going to raise their 
hand and say, I am not going to employ a guardsman.
    Mr. Carney. Right. No further questions.
    Ms. Norton. They better not. Mr. Walz, do you have any 
questions?
    Mr. Sidwell, this has been invaluable testimony. We so 
appreciate you traveling all the way from Missouri to offer 
this testimony to us today. Thank you very much.
    General Sidwell. On behalf of Missourians and the Missouri 
National Guard, I certainly appreciate the interest this 
Committee gives toward the health of not only our Nation but 
the National Guard. Thank you.
    Ms. Norton. We thank you for your service and the service 
of the Missouri National Guard.
    Could I call the next witnesses? And we have inquired and 
appreciate they are willing to serve on the next panel 
together. The next witnesses of course are the administrator of 
FEMA, the Honorable David R. Paulison, and David Hoell, who is 
the chair of the National Emergency Management Association, 
EMAC and who also serves as director of the North Carolina 
Division of Emergency Management. Thank you both for being 
here.

    TESTIMONY OF R. DAVID PAULISON, ADMINISTRATOR, FEDERAL 
 EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY; 
 AND DOUG HOELL, CHAIRMAN OF THE NATIONAL EMERGENCY MANAGEMENT 
ASSOCIATION, EMERGENCY MANAGEMENT ASSISTANCE COMPACT COMMITTEE, 
AND MANAGEMENT DIRECTOR OF NORTH CAROLINA DIVISION OF EMERGENCY 
                           MANAGEMENT

    Ms. Norton. Mr. Paulison, we will begin with you.
    Mr. Paulison. Thank you, Madam Chair, and Ranking Member, 
now, Kuhl, and the rest of the Committee. I appreciate you 
inviting me here. As the administrator of FEMA, I am proud of 
the many reforms we have implemented in the past year. Today 
FEMA is stronger and more nimble than it was in the past. The 
proof is visible in our response to tornados earlier this year, 
our multi-State efforts across the northeast in April storms, 
and most recently our actions in Greensburg, Kansas. At each 
instance, American people saw a FEMA that is leaning further 
forward, moving quickly to respond and working closely with our 
Federal, tribal, State and local partners to ensure a response 
of which we can all be proud. This did not happen overnight. It 
is the result of close review of our past practices and hard 
work of the men and women at FEMA and across all levels of 
government.
    Following Katrina, the White House issued a report calling 
the Federal response to Hurricane Katrina lessons learned which 
recommended integrating the use of military capabilities into 
catastrophic disaster response. The report specifically stated 
that the Department of Defense and the Department of Homeland 
Security should jointly plan for the support of Federal 
response activities and that DOD should be included in all 
Federal emergency plans.
    DOD has a key role supporting FEMA in many of these areas 
and overall planning, coordinating and integrating defense 
support civil authorities with local, State, tribal and Federal 
agencies. The DOD focus in domestic response is on providing 
homeland defense, supporting civil operations and cooperating 
in theater security activity designed to protect the American 
public.
    FEMA's partnership with DOD continues to evolve and the 
disaster response support DOD and its multiple components bring 
to FEMA is critical in enhancing our comprehensive 
preparedness, protection, response, recovery and mitigating 
capabilities in dealing with all types of natural and manmade 
disasters.
    Specifically FEMA has taken direct action to improve our 
coordination with the Department of Defense, the National 
Guard, the Coast Guard and other Federal tribal, State and 
local government partners across the board. Joint participation 
in training and exercises is a vital element in this improved 
coordination.
    FEMA and DOD have implemented numerous improvements based 
on the lessons learned in Katrina as a result of changes 
required by the post-Katrina Emergency Reform Act. Among those 
changes, the DOD assigned liaison offices at FEMA headquarters 
to promote effective coordination of activities and FEMA 
reciprocated by providing permanent staff to serve at NORTHCOM. 
We also have defense coordinating officers in every region in 
this country.
    FEMA is coordinated closely with DOD and many elements of 
an improvement in the national logistics system. A key partner 
in this relationship is the defense logistic agency, or DLA. In 
the past year, the relationship has evolved from support to 
disaster response, to proactive logistical and planning support 
both before an event occurs and during the response efforts.
    Similarly, FEMA has an agreement in place with the Marine 
Corps systems command to support FEMA with emergency response 
equipment that can be deployed to respond to a major chemical, 
biological, radiological, nuclear, explosive or natural hazard 
event. With the Natural Guard FEMA coordinates both the Federal 
level with the National Guard Bureau as well as the State level 
with individual adjunct generals.
    FEMA continues to coordinate and cooperate with Federal and 
State leaders of the Guard in a number of disaster response-
related areas to include improving situational awareness, 
communications planning, force package planning, and overall 
mission and disaster response planning.
    The creation of the Department of Homeland Security brought 
the Coast Guard and FEMA into the same department. This has led 
to a steadily increasing cooperation between the two across the 
spectrum of preparedness planning, exercise and training, 
response issues and identifying lessons learned and in tracking 
and implementing remedial actions at the national level.
    Today two Coast Guard liaisons are permanently assigned to 
FEMA. In this cross-pollenization, both agencies have been able 
to make a number of improvements to their respective 
contingency plans. These new relationships are reflected in our 
revisions of the National Response Plan or the NRP. The NRP 
provide the structures and mechanism for national level policy 
and operational direction for domestic incident management.
    The Department of Homeland Security and FEMA value the 
support of the Secretary of Defense and DOD components to 
facilitate and support Federal, State and local disaster 
response activities. In addition to direct support for disaster 
response, DOD possesses the specialized testing and evaluation 
and education facilities, training and exercise expertise, 
medical capabilities, and technology programs that provide 
important support to all levels of government in enhancing the 
Nation's disaster prepared response capabilities.
    Madam Chair, in conclusion, I would like to thank our 
partners at the Department of Defense and across all levels of 
government for their effort to make the system work better for 
all Americans. FEMA has learned a great deal from our are 
friends in the Armed Forces. The open lines of communication 
and improved coordination will assure a stronger response and 
recovery effort when our Nation calls in times of need. We have 
taken the first important steps both inside FEMA and throughout 
the Federal Government to improve our readiness posture. Thank 
you. I would be happy to answer any questions.
    Ms. Norton. Thank you very much, Mr. Paulison. I thank you 
for your graciousness in allowing General Sidwell to go first. 
That was in deference to the Ranking Member, who had a plane to 
catch. We appreciate you being back here in time for this 
hearing. We know it took some doing.
    We want to now go to Mr. Hoell. We appreciate your coming 
from North Carolina.
    I am the only one that everyone can hear because I have 
learned from experience, at least since becoming Chair, that if 
you do not talk directly into this, we do not hear you up here 
even. So try to be as close and directly to this microphone. I 
think it has to do with the high walls here, not so much with 
the sound system.
    Mr. Hoell. Thank you, Chairwoman Norton and Ranking Member 
Kuhl, Members of the Committee, for allowing me the opportunity 
to provide a statement for the record. In my statement, I am 
representing both North Carolina Governor Michael F. Easley and 
the National Emergency Management Association, NEMA, whose 
members are the State directors of emergency management in the 
States, territories and District of Columbia.
    There are three key areas that I wish to discuss with you 
today that need to be resolved in order to secure our 
preparedness in partnership with the National Guard to address 
disasters. First, authority to maintain and control the 
National Guard should be restored to the Governors for their 
use during disasters and other civil emergencies.
    Second, the National Guard's utilization of the emergency 
management assistance compact, EMAC during Hurricane Katrina 
worked well and should continue to be a strong component of the 
Nation's mutual aid system. Third, National Guard equipment 
should be maintained updated to ensure that the Guard can 
fulfill domestic missions.
    Recent changes to the Insurrection Act may change the chain 
of command for the National Guard in times of emergency. 
Section 1076 of the act allows for the President to take 
control of the National Guard during a natural disaster or 
emergency without the consent of a Governor. Previously the 
Insurrection Act provided for the Governor to maintain the 
control over the National Guard and to allow the President to 
take control in rare and exceptional circumstances.
    The 2006 Defense Authorization language could confuse the 
issue of who is in charge of commanding the Guard during a 
domestic emergency. The bill as signed into law by the 
President does not require the President to contact, confer or 
collaborate with the Governor before taking control of a 
State's Guard forces.
    This language was included by Congress and signed into law 
by the President despite the opposition of Governors, NEMA and 
others. The current law could negatively impact the decision-
making process and speed with which the National Guard 
currently acts in consultation with Governors to respond to an 
emergency. The change exacerbates the current manpower and 
equipment shortages in all States because of demands in Iraq 
and Afghanistan.
    Governor Easley was in Washington, DC last week to discuss 
this very issue and his concerns that the language currently 
weakens North Carolina's ability to respond to disasters in our 
State while expanding the President's authority over the 
National Guard. These concerns arehighlighted in the recent 
release of the Department of Defense implementation plan for 
pandemic influenza. Under law as written now the President 
would have the power to take control of the National Guard at 
such a critical time, and the U.S. Secretary of Health and 
Human Services and other federal officials have told each 
Governor that in the event of a pandemic flu, Washington, D.C., 
would not be able to help every community affected. Therefore, 
we will be responding with our own State's resources.
    The result is that any Governor could be left without 
National Guard resources that might be taken by the President. 
These facts make it even more urgent that section 1076 be 
repealed.
    Last week, the U.S. House of Representatives Armed Services 
Committee took an important step by including language 
repealing section 1076 in the markup of fiscal year 2008 
Department of Defense authorization bill H.R. 1585. We hope 
this provision will be maintained in the final conference 
report.
    Mutual aid assistance provided during 2005 vividly exposes 
the interdependencies of the Nation's emergency management 
systems. For hurricanes Katrina and Rita, the emergency 
management assistance compact, EMAC, fulfilled over 2,174 
missions with 49 States, the District of Columbia, the U.S. 
Virgin Islands and Puerto Rico, providing assistance in the 
form of 65,919 civilian and military personnel and equipment 
assets to support the impacted States. The estimated cost of 
this assistance may exceed $829 million.
    The National Guard sit in support of the response mission 
under Title 32 status and remained under the Governors control 
at all times. EMAC allowed for reimbursement, liability 
protection, workers compensation protections, and allowed the 
home State Governor to call back the units for other domestic 
emergencies.
    FEMA funded EMAC in 2003 with $2.1 million because of the 
national interest in mutual aid. The EMAC grant will end on May 
31st 2007. The post-Katrina FEMA authorizes $4 million annually 
for the program. However, no funds have been appropriated for 
fiscal year 2007. We hope we can count on this Committee to 
support funding in the next budget cycle.
    Our citizen soldiers can only be effective with training 
and adequate equipment to do their jobs in both the domestic 
and international theater. The North Carolina National Guard 
has almost 12,000 members, approximately 750 are currently 
mobilized in theater overseas and about 95 are in Arizona 
working the southwest border mission. The North Carolina Army 
National Guard has about 55 percent of authorized equipment on 
hand. We are currently short about 50 vehicles, such as 
Humvees, tractors, trailers and loading equipment. As we go 
into hurricane season, our governor is concerned that our 
troops and resources may not be enough if we have a 
catastrophic event.
    We appreciate Congress's increased attention and focus on 
disaster preparedness, response, recovery and mitigation 
efforts. We must ensure that Federal, State, and local 
governments have adequate funding for baseline emergency 
preparedness so exercises and training can ensure plans and 
assistance are effective before a disaster. Preparedness 
includes ensuring appropriate authority and funding for the 
National Guard.
    I thank you on behalf of the National Emergency Management 
Association and Governor Easley for the opportunity to address 
your Committee.
    Ms. Norton. Thank you very much. One moment, please. I am 
going to ask Mr. Kuhl, since I have got to do something for 2 
minutes here, to save everybody's time, if he would proceed 
first.
    Mr. Kuhl. Thank you, gentlemen, for being so patient with 
our questions and the testimony of the prior witness. Pressure 
indulgence here. Obviously, Administrator Paulison, many much 
us are very concerned with the transformation of FEMA obviously 
because of the failures that we saw during the Katrina 
catastrophe. I am certainly pleased to see in your testimony 
today, and I apologize that you didn't have enough time to go 
through all the written testimony, but I appreciate, given the 
hour and the time here, limited time we have, your keeping your 
testimony within the 5 minutes prescribed. But I am curious 
about the ten Defense Coordinating Officers that were placed in 
FEMA regions last June, and obviously, we look at those as 
solving some of the major coordination problems that we saw 
between the States and FEMA and DOD. I am just curious as to 
what realistic and practical benefits you are seeing from that, 
if you have had the time to have that experience.
    Mr. Paulison. The benefits are very significant. The fact 
that now we have a liaison not only at our regional offices but 
also in our headquarters and we have people in NORTHCOM that we 
can talk to on a daily basis, sharing information back and 
forth, setting up exercises.
    This last week we had a major exercise with the Department 
of Defense that involved FEMA, Department of Homeland Security, 
including the White House, involving a major hurricane up in 
the northeast and also a nuclear explosion in a major city in 
this country.
    So having those Defense Coordinating Officers in the 
regions, having the people in our headquarters, having our 
people at that NORTHCOM is really making a major difference. 
Along with that is the prescripted mission assignments that we 
now have with the Department of Defense we did not have before 
Katrina. So now the Department of Defense exactly knows what 
our requirements are going to be; we know exactly what they can 
give. It has been tremendous cooperation back and forth. Every 
video conference that we have had, the National Guard has been 
involved in, the Department of Defense, through NORTHCOM, with 
the real-time disasters we have been having, they participate 
fully with us and at a level of cooperation we have not seen, 
in the history of FEMA anyway.
    Mr. Kuhl. So those prescripted mission assignments, which 
were I guess one of the requirements, are now in place?
    Mr. Paulison. That is correct. We have quite a few in 
place, not only with the military but across the Federal 
agency. I think that, prior to a Katrina, if we are talking 
across the entire Federal family, there were only 14. Last 
year, there were 44; this year, over 180 prescripted mission 
assignments. That goes along with all the contracts we put in 
place, too. So we don't have to start doing these things after 
a storm hits, they are going to be in place ahead of time. They 
are in place ahead of time.
    Mr. Kuhl. 144 in place now?
    Mr. Paulison. 180.
    Mr. Kuhl. I was going to ask you to tell me what they all 
were, but I couldn't remember 5, much less 180.
    Mr. Paulison. They range the gamut of getting heavy lift 
helicopters from the Department of Defense, the National 
Disaster Medical Team from HHS, housing from HUD. Right across 
the Federal Government, almost for 21 different agencies we 
have now prescripted mission assignments and are working very 
hard and have been over the last 2 years to put those in place. 
Just trying to put things in place I saw did not work in 
Katrina and what stopped some of the ability to respond quickly 
and nimbly; having those in place allowed us to do that. If you 
want to give me a couple of minutes, let me just quickly tell 
you what we did in Kansas during--we, within 72 hours, we had 
the Army Corps of Engineers, National Guard Bureau, Small 
Business Association, HUD, U.S. force service, Social Security 
Administration, Veterans' Administration, EPA, postal service 
and the Economic Development Agency on the ground within 72 
hours in Greensburg, Kansas. That is the kind of partnership we 
have been putting together and that is the type of response we 
had. That is what these prescripted mission assignments do. I 
know it is not just DOD, it is across the whole Federal family. 
We are one government, we have to start acting like it.
    Mr. Kuhl. Just to follow up on that, you had them on the 
ground and I assume that the feedback from that is positive as 
it relates back to contrasting feedback that you got on 
Katrina. Of course you weren't there during Katrina. Just kind 
of tell me what kind of feedback you are getting out of having 
that prescriptive mission assignment in place.
    Mr. Paulison. I should send you the news reports that we 
got back the next couple of days from that whole area from all 
the news media that were on the ground and saw what we were 
doing. We put communication vehicles on the ground. The city is 
actually operating out of one of our command posts. That is 
their city hall, big sign on it that says city hall.
    We were right there with them from day one. They got their 
local urban search and rescue teams to respond but when they 
asked from help from us, we had a team on the ground within 
several hours. We were there helping them set up cell phone 
communications, land mobile radios for their first responders. 
They didn't need food at the time. They had plenty of food, but 
we did move food and ice and water. Just to give them the tools 
they needed to do the job. Everybody lost their homes there, 
including the mayor, including the city manager, including all 
the first responders, but they kept working so we were there to 
back them up, and the response was what I want FEMA to be, 
there early, leaning forward, not waiting for the declaration 
before we start moving equipment. We started moving equipment 
right away. But within 24 hours of the tornado hitting, the 
President had signed a declaration. So we moved very quickly, 
and that is what we are going to be doing.
    Mr. Kuhl. Thank you. Just to follow up on that, out of 
curiosity, obviously, compared to the disaster in New Orleans 
and in the Gulf Coast that was a small catastrophe size wise, 
certainly as tragic as the issue was in the gulf States. From 
what you have seen and what you have put in place, can those 
same kinds of activities occur in a larger geographical 
disaster arena?
    Mr. Paulison. You are absolutely right, it was not a 
Katrina. It was a smaller event but it did take out the whole 
town. And the answer is yes, it is a different philosophy, a 
different culture that we are building inside the organization. 
We have prepositioned supplies around the country but we are 
also going to be predeploying them to move in things quickly, 
setting up a communication system. I think everyone here today 
understands the biggest failure we had was communications and 
not having the right type of people on the ground who knew how 
to manage disasters. Eight of my 10 regional directors offices 
were empty when I took over at FEMA. They are now filled with 
people with 25, 30 years of experience in dealing with 
disasters. So we are going to put the right people on the 
ground, move much more quickly. We have worked very hard to 
instill a unified command system where we are sharing 
information, so if you have a need for something like buses, 
you know who is responsible, who is going to get them there, 
when they will show up. You are not going to see the same 
failures you saw in Katrina.
    Mr. Kuhl. Thank you. I do have one more question if you 
don't mind. Thank you, Madam Chairman. I.
    Am very curious, because I think all of the finger pointing 
that went on during Katrina, as to what the actual process is 
for requesting military support, and I wonder if you can walk 
me through the process as it starts from say the request coming 
from the Governor's mansion as to who then makes the decisions 
and who actually makes the calls as to how you get involved, 
how any National Guard gets involved or anybody else. Just so 
that you can, I think, kind of lessen my anxieties in fact by 
your explanation and your answer as to my belief and feeling 
that we have made significant strides ahead, or you have in the 
department.
    Mr. Paulison. The declaration process, really the process 
has not changed. The Governor declares a State of emergency for 
their State. They will either do preliminary damage assessments 
with us if it is not a significant event where we can take a 
couple days to do that. If it is an overwhelming event like, 
the Greensburg, Kansas, our people will tell us on the ground 
immediately to say it is going to be a declaration. The State 
sends a request to the regional office through the President to 
the regional office. They do a quick evaluation, send it to me, 
and I send it over to the White House for the President to sign 
with my recommendation. The President makes the final decision 
obviously but I send it over with my recommendations.
    Mr. Kuhl. So it comes directly through you, now to the 
President. We don't have to worry about Homeland Security 
approval or authorization.
    Mr. Paulison. We copy Homeland Security on it. In the case 
of Greensburg, we told them what was happening, they, said 
don't even bother sending it here right away, send it right to 
the White House. There is a communication going on constantly 
between us, Homeland Security and the White House on the phone 
before it even comes in. So everybody is ready. In the case of 
Greensburg, I kept my staff literally overnight to work on it, 
so did the White House staff, to process that, and we turned it 
around within 24 hours of the time the storm hitting--actually 
from the time we got it--the President had signed it within 
just a matter of hours.
    Mr. Kuhl. What about the actual request for military 
assets, which is one of the concerns we have here obviously.
    Mr. Paulison. There are two types of military assets that 
we would use, one is the National Guard, as controlled by the 
Governor. We do not prescript assign them; that is a State 
asset at that particular time. But from the Department of 
Defense we have these prescripted mission assignments that just 
take a phone call or a memo over to the Secretary of Defense 
that we are asking for this particular asset to be mobilized, 
and they will start mobilizing it.
    Mr. Kuhl. Thank you.
    Thank you, Madam Chairman. I appreciate the extended time.
    Ms. Norton. Certainly so, Mr. Kuhl. So you are the Ranking 
Member now and therefore you can get all the time you like. We 
don't have many Members. This is important to bring some of 
this out. Mr. Hoell, I do want you to know that in the defense 
authorization passed just yesterday, there was the repeal of 
the Insurrection Act, which you strongly advocate on page 2 of 
your testimony, the need to restore to the Governor's full 
authority to maintain the National Guard. What was the 
difference? What difference did it make, or did you see that 
difference over the time? Actually, it was just done, I 
suppose. It was just done in the last appropriation. So I am 
not sure if you had time to see what difference it made to have 
that control shifted, but if you saw any difference, it would 
be good to lay it on the record at this time. RPTS BINGHAMDCMN 
NORMAN[12:05 p.m.]
    Mr. Hoell. I think that our concern was that you know the 
Governor relies very heavily on the National Guard as a support 
force. And, quite frankly, our National Guard in North Carolina 
has built the same kind of mission packages that Director 
Paulison is talking about. So our forces are organized into 
response packages that can come in and do immediate response 
work for State and local government and the Governor needs to 
have control of those resources to be able to bring them on 
immediately, you know, when a disaster occurs and be able to 
control those forces.
    Ms. Norton. Well, General Sidwell spoke about, for example, 
the discretion to say to students who just come from Iraq, you 
are not going to be pulled out of school again, and apparently 
that wasn't possible under this short-lived bill.
    I think we ought to say, well, particularly when both of 
you hear about EMAC, I am always impressed with what I--you 
will have to forgive me, for lack of a better analogy, used in 
another context in Major General Sidwell's response to his 
testimony; for lack of a better word, I think it was Special 
Forces people, people who can get there even quicker or who can 
go across State lines.
    I must say Mr. Hoell, when you indicated that you--the 
amount that was available, $4 million annually for this 
program, apparently it is authorized, but that the grant will 
end on May 30th and you are not sure it was--it would be 
appropriated again. I have instructed staff to make immediate 
contact with the appropriators in the hope that we can make 
sure that that appropriation is, in fact, there.
    And the reason I do so, I think you could--both of you--
could help elucidate. The EMAC system that we funded allows, as 
I understand it, units to cross State lines, emergency 
management units. I take it that they could have some Guard in 
it, some FEMA in it. They are designed to be nimble.
    Could each of you give us some sense how the EMAC system 
works, whether it works, or how it works--it must have worked 
during Hurricanes Katrina and Rita--why you consider EMAC, what 
it is, why you consider it an important part of your work?
    Mr. Hoell. The EMAC system, Emergency Management Systems is 
a compact, it is a State-to-State mutual aid agreement 
basically made between Governors that we can share resources 
from State to State.
    It has a well-defined operational system so that a State 
that is in need of help can broadcast to all the other member 
States what need they have. Other States then can look at that, 
say we have got a response resource that we can deliver to you. 
We write a formal contract between States such that when the 
resource is delivered to the requesting State, it goes--it goes 
under, you know, coverage for liability; you know, the people 
are brought right into that requesting State's operational 
capability. They carry out their mission. When they return home 
to their responding State, we then turn around and send a bill 
back for the service that was rendered to the requesting State.
    So it is a well-defined system. It worked extremely well in 
Hurricanes Katrina and Rita. We delivered over 65,000 
personnel. Of that, it was said today, roughly 50,000, over 
46,500 National Guard personnel that were delivered to those 
events in the gulf region.
    And, again, I think it was an efficient and effective 
response, and details are proving themselves to be a very 
responsible way to do business.
    Ms. Norton. Mr. Paulison, what is a unit? How does FEMA 
relate to what you put into such a unit?
    Mr. Paulison. The thing Mr. Hall said, the EMAC system is 
really a State-to-State mutual aid agreement to move resources 
from one State to another in the event of a disaster that 
overwhelms the State's capabilities.
    During Katrina, particularly National Guards--and I think 
the gentleman behind me will correct me--all 50 National Guards 
contributed to responding to Katrina. And like Mr. Hoell said, 
the system worked very well. It allows a lot of resources----
    Ms. Norton. Does it have units, civilian and National Guard 
units in the same unit responding across State lines?
    Mr. Paulison. Whatever the receiving State requests. It may 
be National Guard units. It may be bulldozers. It may be 
firefighters. It may be police officers. It could be heavy 
equipment. Whatever the State happens to need----
    Ms. Norton. Who coordinates that? Once you know that is 
going to happen, who is in charge of those people?
    Mr. Hoell. It is coordinated by the States. The State is 
asking for the resource. You know, the responding State then 
delivers the resource to the asking State, and it is under the 
control and direction of the asking State once it gets there. 
And, again, we do move both National Guard assets, State 
assets, and quite frankly we can also move local assets, you 
know, through mutual aid, where we have a written agreement so 
that that local resource can come on as an agent of the State 
and be delivered to the other States.
    Ms. Norton. So agreements exist easily among all States in 
the same region, for example? Do written agreements exist today 
among all the States in the same region so that Maryland, 
Virginia, and D.C. Will have, for example, automatically almost 
such an agreement?
    Mr. Hoell. And 50 States and three territories are signed-
on members, plus Washington, D.C., with the exception of 
California. They had a sunset law on their signatory to EMAC 
and it ran out. So they are currently trying to get their 
legislation reenacted.
    Mr. Paulison. To answer your question directly, the 
National Emergency Management Association is the one that 
controls the EMAC system. It goes through their organization. 
And we support them with that. As part of our whole ESF system 
that we have, we can assign those resources. But this really 
does go from State to State and it works very well, and we are 
glad now we have all 50 States on board, and hopefully 
California will sign back up shortly.
    Ms. Norton. Mr. Paulison, I do not understand the 
relationship of FEMA to the National Guard. I know you have 
National Guard units and you talked about National Guard units 
that are on site, the National Guard Bureau on site, now. And 
in your headquarters, when the President declares a National 
emergency and the National Guard is called out, has FEMA any 
sense of the capacity of the National Guard to handle the 
emergency? Or is that still a whole separate matter for the 
National Guard?
    Mr. Paulison. We do have the capacity to--we have the 
ability to understand what the capacity is, because we are 
working with them side by side.
    Ms. Norton. Were you doing that before Katrina?
    Mr. Paulison. We do it in exercises. We have been 
exercising together. We need to do more of that. And now that I 
have the exercise program back under FEMA, because of the Post-
Katrina Reform Act, that is going to allow me to have a better 
hands-on in setting those exercises up. But we work with them 
right at the State level. We move people right in the State 
Emergency Management Center right away, so we know what the 
States' needs are, including the capacity of the Guard and all 
the other capacities of the State, so we can start assisting 
them in backing it up in what the gaps are.
    Ms. Norton. Mr. Paulison, could I ask you a question that 
may seem parochial, except the entire Federal presence is 
located here. Half of it is in D.C., the rest in the immediate 
region. Have there been any of these exercises involving the 
National Guard and FEMA in this region?
    Mr. Paulison. That, I am not sure. I need to find out on 
that. I don't want to give you a bad answer and say "yes" or 
"no."
    Ms. Norton. I would like to know. I would think that such 
real-time exercises are imperative in this region; 200,000 
Federal workers come into this City alone, every day, using 
public transportation. Many of them are coming underground by 
subway. We have crowded highways. Are you aware of the real-
time exercise that the District of Columbia did on July 4th? I 
think it was done two July 4ths. I don't know if the National 
Guard was involved. But it is, as far as I know, it is the only 
real-time exercise ever done by a major city.
    And what it said was since you have what can only--what I 
am sure are hundreds of thousands of people that are here not 
only for the sights, but because of a major concert that is 
held that evening, we will use this as an exercise to see if 
people can--will follow instructions about getting out of town. 
And all they did was to put the red lights, held the red lights 
longer than they otherwise would have, just to see what people 
would do.
    It was announced ahead of time that this would be an 
exercise. But, for example, if you are used to waiting, I don't 
know, 2 minutes for a red light, and for some reason in order 
to--I don't know exactly what they were doing to get emergency 
vehicles through. Everybody had to stand still for 10 minutes.
    The point was to see if it worked. And each time it worked 
just a little better than the next time. With all of those 
folks it didn't work very well. I would like you to come see me 
about doing such an exercise here and encouraging exercises of 
this kind to be done all over the country.
    I just don't believe that instructions much matter. This is 
what you should do, XYZ. We believe, for example, in this 
region most people would just flee, giving the National Guard 
much more of a huge debacle than it would otherwise have, since 
there is nowhere to flee to. You get on the roads trying to get 
out of this city at rush hour, you are in bad luck. Imagine if 
everybody who lives here is also trying to do the same thing, 
particularly since the word is not altogether clear to people 
that the first thing you ought to do is just stay where you 
are; probably they are not blowing up the whole city, probably 
it is compacted in a certain part of the city, so everybody is 
probably better off just not moving.
    I don't even think that is thought out, because they saw 
Katrina, whoops, we are certainly not going to be caught if 
there is some kind of disaster, and we are going to get out of 
town.
    Mr. Hoell, have you ever done any real-time exercises with 
or without the National Guard in North Carolina, and has any 
national official indicated that that would be a good thing for 
you to do?
    Mr. Hoell. We have done exercises with our National Guard. 
In fact, we include them them in all of our planning efforts in 
North Carolina. They are a vital----
    Ms. Norton. I am talking about where you wouldn't involve 
the civilian population. I am speaking about the kind of real-
time exercises of the kind I just described here on July 4th, 
where, in addition to people who are trained, you are 
implicating the civilian population who would be affected 
almost surely if there were a natural or other kind disaster.
    Mr. Hoell. We just recently did a major exercise in 
Charlotte, our largest metropolitan area, where we did a 
significant building collapse, and then that followed on with 
an additional search-and-rescue exercise in a city outside of 
Charlotte. And the National Guard was actively involved in that 
mission, in that exercise.
    Ms. Norton. Thank you. I have some more questions but I am 
going to defer now to my colleague, Mr. Carney.
    Mr. Carney. Thank you, Madam Chair.
    Mr. Paulison, good to see you again. It has been a few 
days. As you know, of course, one of FEMA's primary 
responsibilities is emergency preparedness planning. How has 
FEMA adapted to emergency planning to account for a reduction 
in National Guard personnel and equipment?
    Mr. Paulison. We haven't, quite frankly, seen an impact on 
our emergency response because of the deployment of National 
Guard's assets overseas. Even in Greensburg, Kansas, when I sat 
down with the adjutant general, I said okay, what do you need 
that you don't have? And the answer was, we have everything we 
need. And I think you heard General Sidwell just say the same 
thing. I asked him the same thing. There was plenty of 
resources on the ground to do that.
    However, he did say that if there was another disaster that 
size in his State, back to back, he would not have the 
resources. And so we talked about the EMAC system and how we 
can draw resources from other States, how we could mission-
assign the Corps of Engineers to come in with heavy equipment 
if you needed that. We have contractors, contracts in place to 
bring in the same type of equipment.
    So we have a backup system in place that, should something 
happen catastrophic enough to overwhelm local resources--like 
we saw in Katrina--that we can move things in from other States 
and other areas to back that up. And that is how our system 
works. That is how it has been working.
    Now, what we have done now is just making it much more 
robust, better communications, better systems in place where 
missions assignments are already--where everybody knows what 
they are going to do. There are contracts in place. Instead of 
writing those after a disaster, where you don't get a good 
contract, we have them in place ahead of time.
    Mr. Carney. That is great. The EMAC response takes how 
long? I know you respond, but there is timely response and then 
there is simply response. What are we looking at if Greensburg 
happened twice on the same day? How long would it take, just a 
wag, from your point of view?
    Mr. Paulison. Well, with Missouri right next door, I think 
they could move equipment very quickly and the surrounding 
States would move very quickly so, yes, there is going to be a 
delay because it is not right there. But at the same time, a 
lot of equipment that you would use in a disaster like that, 
you don't necessarily want right there immediately. You know 
you want to do basic search and rescue and those types of 
things, system after system, to be able to set up a staging 
point to be able to bring those resources in.
    So, you know, any catastrophic event is going to have a 
delay in it if it is a huge event. It is going to slow 
everything down.
    Mr. Carney. If you are not fortunate enough to have 
Missouri as a neighbor--tip of the hat, General--but has FEMA 
considered something that the military does, and that is 
prepositioning of equipment in various regions?
    Mr. Paulison. And we do a lot of that already. We have a 
lot of prepositioned equipment around the country, and then in 
a notice event like a hurricane or something like that, we are 
actually predeploying equipment. We do have pre-stages, much 
more than we did during Katrina, scattered across the country 
to be make sure we can move things fairly quickly.
    And, again, the contracts in place--like contracts with 
with buses, contracts with ambulances, working with Defense 
Logistics Agency--that we did not have before, is really more 
of a partner to help us move supplies; is going to make a 
significant difference in now how we respond.
    Mr. Carney. So basically it is your testimony that you have 
noticed no reduction in FEMA's ability to respond or with 
drawdowns and National Guard personnel and equipment?
    Mr. Paulison. I have not seen that. Again, the disasters 
have been smaller in scale than a Katrina, but every time we 
responded--Florida, there were tornadoes there; we had the 
tornadoes in Georgia and Alabama; the ones in Greensburg; the 
floods we had up in the Northeast. Every Governor I talked to--
and I talked to all of them--we have the right amount of 
equipment. We need you here to help us on the public assistance 
and individual assistance and communications equipment. And we 
did that. But as far as National Guard's assets, none of them 
have said to me that we don't have the right equipment.
    Mr. Carney. Mr. Paul Hoell, can you echo that?
    Mr. Hoell. I would say in Florida in particular in 2004, 
and in Hurricane Katrina in 2005, those States were drawing on 
National Guard assets of other States. And that is how adequate 
numbers are delivered. So that is what we are going to do. If 
we don't have adequate numbers in our State, we are going to 
ask other States to deliver through the Emergency Management 
Assistance Compact.
    I think our biggest concern is, should we be faced with 
another Katrina, you know, are there adequate numbers of 
personnel and equipment that are readily available nationwide 
to come to our aid. But, again, it will be done through the 
Emergency Management Assistance Compact.
    Mr. Carney. Thank you, gentlemen, that is all then. Nothing 
further.
    Ms. Norton. Thank you very much.
    Mr. Kuhl, do you have anymore questions.
    Mr. Kuhl. Thank you Madam Chairwoman. I just have one. What 
happens if EMAC--if States ask EMAC to come forth with 
resources that they don't have individually. And EMAC can't 
respond? What is the next step?
    Mr. Hoell. I think most States, certainly in North 
Carolina, we have contracts for resources, just like FEMA does. 
We would borrow from other States where those resources are 
available. We are partnering, or at least attempting to partner 
with the private sector, quite frankly. The private sector--I 
met with them yesterday with the business executives for 
national security, because they are very much used to engage 
with the public sector on how we would respond to significant 
disasters.
    And the other option is for us to turn to the Federal 
Government and say, we need help we can't find; are there in 
the public sector, at the State and local government level or 
in the private sector, that is readily available to us, do you 
have something you can support us with?
    And so I think, partnered with the Federal Government, 
partnered with the private sector, and partnered with our local 
counterparts and other States across the Nation, we are fairly 
well positioned to respond to significant events.
    Mr. Kuhl. So you don't envision any shortage of resources 
ever, then?
    Mr. Hoell. In a major catastrophic event, who knows? It 
could happen. Pandemic flu, I think we are going to have 
shortages. And I don't know where all the resources will come 
from, because States will probably be reluctant to give up 
their resources through EMAC if they feel like they are going 
to be affected as well.
    Mr. Kuhl. Okay. Thank you, Madam Chairman.
    Ms. Norton. Thank you, Mr. Kuhl.
    I note on page 7 of your testimony, you indicate that you 
have members mobilized overseas, in Arizona working the 
Southwest border mission. Do you know if North Carolina has had 
the full complement of its National Guard or it has had any 
difficulty in recruiting National Guard?
    Mr. Hoell. I am not aware that they have had any problems, 
no.
    Ms. Norton. That is good to hear. You say on that same page 
that the North Carolina Army National Guard has about 55 
percent of authorized equipment on hand, that you are currently 
short about 50 vehicles. And you name Humvees, tractors, 
trailers and loading equipment.
    Does that mean that even with those deficits, you feel that 
you could respond at least to the kinds of emergencies that 
most typically occur in North Carolina? You have large 
hurricanes, we know, because they go from North Carolina right 
up here.
    Does it mean that you could continue through your--to 
respond through EMAC to Florida, which apparently you have done 
on a frequent basis? I mention in my opening testimony that you 
are typically available to help evacuate people from Florida 
hospitals. Could you comment on whether or not this report of 
your equipment is enough to handle emergencies in North 
Carolina today?
    Mr. Hoell. When we activate for an event, we will have 
Guard representation in our emergency operations center. And we 
basically will, you know, call up certain numbers of resources 
to start with, which wouldn't deplete all that we have. We 
would start with the packages we feel like we need.
    As we enter into the event and there is increased need for 
resources, we would use the North Carolina resources first. If 
we see that we are going to run out of North Carolina 
resources, we may turn to our FEMA counterpart and the Defense 
coordinating officer to ask for military support. We may turn 
to EMAC to ask for other States to deliver resources. We may 
even turn to our own contracts to bring in transportation 
resources. We do have a contract for transportation resources.
    And not necessarily in that order. It depends upon, you 
know, how the events unfold and what resources we would want to 
bring up to support those resources that we had in the State of 
North Carolina.
    Ms. Norton. I don't know how civilian and National Guard 
forces can adequately prepare without some kind of baseline 
indicating what people ought to have. This is where this 
Committee and the Homeland Security Committee are going to have 
to work together. Again, I am using these statistics. That is 
all you have are these statistics about 55 percent of 
authorized equipment. And all you can say is if you don't know 
what is going to occur, is, well, we would reach out for more 
equipment. And that, of course, is fine and it ought to be 
done, as we have learned from Mr. Sidwell, that it is done on a 
regional basis. Again, that kind of knowledge and information 
would just help everybody to feel better about coming 
disasters.
    Mr. Paulison, I must ask you about recent reports, press 
reports about formaldehyde in Federal Emergency Management 
Agency trailers, I know that you yourself requested a report 
from the Agency for toxic substances and that that report 
cautioned about generalizing to a larger population of 
trailers.
    But your statement of May 15th in response to formaldehyde 
found in trailers was--in a Homeland Security hearing--seemed 
to indicate that everything was normal, although you apparently 
had sampled air in only 96 trailers.
    There was some concern that you indicated people should 
open their windows. I am sure they did that if they smelled 
formaldehyde. But then experts say that that can have the 
effect of--certainly if you put on air conditioning--of 
increasing the amount of formaldehyde.
    I wish you would elaborate on the safety of trailers which 
are now being used. Many of them are, of course, old trailers 
that you put out, or trailers on hand that you put out, I 
should say, as the need arises. And how you can assure those 
who use the trailers that formaldehyde levels for those 
trailers in particular are safe, whether they are running their 
air conditioners or not, and particularly considering what the 
heat is likely to be, the temperature is likely to be in the 
southern States where many of these trailers are in use.
    Mr. Paulison. Thank you, Madam Chair.
    We have been concerned about this for a long time. We have 
been on top of this for a long time. This is not something new. 
We have been dealing with the formaldehyde issue with the 
travel trailers for 6 or 7 months, maybe even longer. We have 
brought in the EPA and CDC to give us some very clear advice on 
what to do.
    Ms. Norton. Was that after the report of formaldehyde in 
the trailers, I guess, in Louisiana?
    Mr. Paulison. No, this was months and months ago that we 
did this. We have been working on this for a long time and the 
advice they gave us--and I can give you copies of the report if 
you don't already have it--is that if they air the trailer out, 
the formaldehyde dissipates over time. They said formaldehyde 
is in everything we produce. It is in travel trailers. It is in 
wood.
    Ms. Norton. That is like saying arsenic is a natural 
substance.
    Mr. Paulison. So we have done a couple of things. One, we 
have--first of all, out of the 115- or 20,000 travel trailers 
we put down on the ground, we have only had around 100 
complaints.
    Ms. Norton. Of how many you put on the ground? I am sorry?
    Mr. Paulison. 115,000 or so. Is that the right number? Yes, 
give or take a few, over 100,000.
    Ms. Norton. Does that mean you have tested before you put 
them on ground and found they are free--or at least have levels 
below the dangerous level of formaldehyde?
    Mr. Paulison. No. What I am saying is we have installed 
over 100,000 travel trailers and we received around 100 
complaints.
    Ms. Norton. I am asking, therefore, since you have not 
received complaints, does that mean you have tested them before 
they were, in fact, leased out to people to use?
    Mr. Paulison. No, we did not. When we installed them, the 
formaldehyde was not an issue. We were not aware of the issue. 
Put it that way.
    Ms. Norton. How do these emerge just this month with 
formaldehyde?
    Mr. Paulison. I think it is an old issue----
    Ms. Norton. I think it is that it is hot in Louisiana, is 
what I think. I think that it emerged because the heat may 
have--here I am doing what scientists do. Of course then they 
do a test to see if it is true or not. You put any trailer that 
has some formaldehyde in it, it might be a new trailer but it 
is in storage for some time, you expose it to the kind of 
deathly heat that you have in Louisiana, then the formaldehyde 
may come out.
    So my question is, how can we assure people in those 
areas--and those are the areas where we have most of the 
trailers--that you have looked at such trailers for 
formaldehyde before they are leased out, and that any 
formaldehyde at that time in those trailers is below the 
dangerous level?
    Mr. Paulison. We have had a couple--first of all, we are 
bringing in our Department of Homeland Security's medical 
officer based on the report that we saw the other day, Dr. Jeff 
Runge, to work with us and get with that doctor and look at 
those case studies that he said he has, and see exactly what 
the issues are.
    Secondly, we have----
    Ms. Norton. You bring him in to look at the trailers where 
the reports have been made?
    Mr. Paulison. He is going to talk to the doctor that 
reported on CBS. Talk to him, find out what his findings are, 
look at those. The trailers that people continue--we have had 
several that we have replaced that people are sensitive to 
formaldehyde, and if they continue to complain even after we 
have aired the trailer out and air conditioning, like the CDC 
told us to do, we will change those trailers out. We will 
continue to do that. Also----
    Ms. Norton. You change those trailers, meaning you put 
those out of use, you no longer use them?
    Mr. Paulison. Took it out of use and gave them a new 
trailer.
    Ms. Norton. Does that mean the trailers are then put back 
into your stockpile of trailers?
    Mr. Paulison. No, we won't do that. We have also changed 
the specification----
    Ms. Norton. I don't mean to say--I just want to say for the 
record, taxpayers have paid for those trailers. I don't mean to 
say those trailers are useless. I would rather see those 
trailers--I think they should be taken out of service, just as 
you are doing. But I would much rather see somebody look at 
those trailers and deal with formaldehyde than to have those 
trailers just carted off as no use to anybody, and we write it 
out.
    Mr. Paulison. In most cases, airing the trailer out reduces 
the amount of formaldehyde very quickly and then, over time, 
the formaldehyde does dissipate----
    Ms. Norton. Or you might in fact find--and here is where we 
need scientific study. We might find that if there is a need 
for a trailer in Maine or in New York, that this is simply not 
a problem; that subjecting a trailer to intense heat of the 
kind we have in some States makes this an issue.
    And I would just--and here I am doing the kind of 
hypothesizing that scientists do, they just hypothesize various 
scenarios and then they test them out. I would ask that that 
there be some kind of testing by scientists so that this 
disappears, particularly since you say this is an old 
complaint. If it keeps coming back, we have got to find a way 
to deal with it.
    Mr. Paulison. That is what we are trying to do. Also, the 
mobile homes has a--HUD has a specification for the amount of 
formaldehyde they can have there. Was no specification for 
travel trailers. Our new contracts for travel trailers have to 
meet the same specification that HUD sets down for mobile 
homes----
    Ms. Norton. And does that include--does that say something 
about formaldehyde?
    Mr. Paulison. That is what I am talking about, the 
formaldehyde issue. I am sorry, I should have said that up 
front--that deals particularly with formaldehyde. There are 
specifications for mobile homes. There were none for travel 
trailers. So our----
    Ms. Norton. And these were travel trailers?
    Mr. Paulison. That is correct. The new travel trailers that 
we are going to be purchasing, if we buy new ones, will have 
the same specification as a mobile home does. So we won't have 
the issue in the future.
    In the meantime, we are telling people how to mitigate the 
formaldehyde in their trailer, if they have a complaint--it is 
usually just people who are sensitive to that--air them out, 
turn the air conditioner on. I know it sounds simple, but 
according to CDC that works very well.
    If it doesn't work for them, we will change their trailer 
out and give them a new trailer and test it before we give it 
to them. We are on top of it. We do understand this issue and 
we are taking it very seriously. We are not making light of 
this at all.
    Ms. Norton. Mr. Paulison, one more question. You are going 
to get this question--first of all, I will not ask you a 
question on the disposition of trailers here. I will ask you--I 
asked for a report within 30 days. I need to know the 
disposition of trailers, about which we had a hearing earlier, 
about whether we are disposing of them, how we are treating--
how we are retaining them, how taxpayers are being relieved of 
what may be excess trailers.
    But I will ask that report to come to--and I will ask staff 
to give me what the status of that is.
    But this is a question you are going to get. You got it 
from Homeland Security just last week, and here it comes from 
us. And that is the status of the National Response Plan. This 
is a plan where essentially all of the assets on the ground, 
public and private, be a plan, not a tailored plan but an 
overall plan of how we will deal with disasters of every kind. 
What is the status of the plan and when will it be ready for 
public comment?
    Mr. Paulison. Okay, we have--the National Response Plan is 
in place, and it has worked. It is a good solid plan and we are 
using it. Everyone knows who is going to report to whom and how 
we are going to manage this.
    What we are doing is rewriting that plan. We are going to 
make it more user friendly. We want to make it bottom up, so it 
is much more easy for people to understand, and how they are 
going to use that. We are currently working on that. It will 
not be done by June 1st, but it will be done in the June time 
frame.
    We are moving very quickly on it. We are going to put it up 
for review as soon as we can get the draft done. So we have 
staff working literally almost around the clock to get the 
thing. We have a lot of input from our users out there, and 
NEMA is helping us with this. Other agencies are making sure 
that we get this plan out and get it done right.
    Ms. Norton. A final question for Mr. Hoell. You praised the 
EMAC system. You indicate it is not a perfect system, since we 
are trying to find ways and recommendations to offer for the 
EMAC system which we, too, are very impressed with. I would 
like to ask you what recommendations would you make to make it 
a more perfect system?
    Mr. Hoell. Well, I think what we truly need is some funding 
support through FEMA to the EMAC system, so that we can do 
better planning and better education across the board of all 
our component parts, you know, so that everybody understands 
how EMAC works, and it can be appropriately activated and 
utilized in disaster time.
    We believe strongly that, as the Nation's mutual aid 
system, it is a very valid program. And that is what EMAC is; 
it is a Nation's mutual aid system. But it does need some 
funding support and that is something we would ask for.
    Ms. Norton. Well, we strongly support it. This Committee 
has always supported those grants and we will support the 
appropriation based on your testimony that said that the 
appropriation was running out at the end of 2007. I will ask 
Mr. Kuhl if he has any further questions.
    Mr. Kuhl. Actually, I have just two.
    And I am not sure, Mr. Hoell--or Mr. Paulison can answer 
the first one. And it comes back, it is a continuation of the 
EMAC system. Your percentage of equipment authorized and every 
other State's doesn't appear to be 100 percent. And the 
question would be from your perspective, I guess in your 
National Association role, would be: Do you have a dollar 
figure, if every State was to have 100 percent of its 
authorized equipment, what that dollar number would be? In all 
50 States?
    Mr. Hoell. I don't have an answer to that. No, sir, I 
don't. Can we get that, Kristen?
    Through the National Guard Association we can probably get 
that information, but we do not have it.
    General Sidwell. Actually, I think the National Guard 
Bureau could provide that number. I can get together with them 
and get back with you.
    Mr. Kuhl. That would be great if you had that.
    [Subsequent to Hearing, General Sidwell added the 
following: We would need $50B worth of equipment to bring all 
50 states to 100 percent of its authorized nationwide fill]
    Mr. Kuhl. And then relative to the National Response Plan, 
Mr. Paulison, can you tell me who actually is involved in the 
development of that? Is that something you personally are 
doing, or is there somebody within your agency or Homeland 
Security?
    Mr. Paulison. A combination of several things. One, input 
from the user groups out there, having input into what they 
seem to need to be in the plan. The information from the post-
Katrina format. FEMA has the overall responsibility for putting 
that plan together and getting it out, working with Homeland 
Security, working with people out of the White House. It is a 
combination of Federal agencies that have them put into the 
plan, including the Department of Defense. But FEMA is the one 
that is coordinating the actual writing of the plan and making 
sure we get all the things in there the other agencies see we 
need to tweak and change for the plan.
    Mr. Kuhl. Is there one person who has, really, the overall 
oversight?
    Mr. Paulison. Right now, I have--Bob Shea has the oversight 
for FEMA, and also I just assigned my deputy, Harvey Johnson, 
Vice Admiral Harvey Johnson, to also assist with that plan to 
make sure we get it in a timely manner.
    Mr. Kuhl. Okay. Thank you both for your testimony. I really 
appreciate your being here.
    Ms. Norton. I thank you, Mr. Kuhl, and I want to thank you 
as well, both Mr. Paulison who had to fly back in order to 
testify today--we very much appreciate that sir--and Mr. Hoell 
who had to come all the way from North Carolina for testimony 
that proved very valuable to us. We appreciate that both 
witnesses have testified. And we apologize that when you are on 
the second panel you have to wait.
    But as you can see, Mr. Hoell--with Mr. Paulison, who is 
the agency head on the second panel with you--that certainly 
did not say anything about the importance or the priority of 
importance to this Committee. I thank you both for coming.
    We will hold the record open for 30 days, especially 
considering the material that General Sidwell promised to get 
in response to Mr. Kuhl's questions, and any of the materials 
that we have requested.
    The hearing is adjourned and I thank all the witnesses once 
again.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5927.009
    
    [GRAPHIC] [TIFF OMITTED] T5927.010
    
    [GRAPHIC] [TIFF OMITTED] T5927.011
    
    [GRAPHIC] [TIFF OMITTED] T5927.012
    
    [GRAPHIC] [TIFF OMITTED] T5927.006
    
    [GRAPHIC] [TIFF OMITTED] T5927.007
    
    [GRAPHIC] [TIFF OMITTED] T5927.008
    
    [GRAPHIC] [TIFF OMITTED] T5927.013
    
    [GRAPHIC] [TIFF OMITTED] T5927.014
    
    [GRAPHIC] [TIFF OMITTED] T5927.015
    
    [GRAPHIC] [TIFF OMITTED] T5927.016
    
    [GRAPHIC] [TIFF OMITTED] T5927.017
    
    [GRAPHIC] [TIFF OMITTED] T5927.018
    
    [GRAPHIC] [TIFF OMITTED] T5927.019
    
    [GRAPHIC] [TIFF OMITTED] T5927.020
    
    [GRAPHIC] [TIFF OMITTED] T5927.021
    
    [GRAPHIC] [TIFF OMITTED] T5927.022
    
    [GRAPHIC] [TIFF OMITTED] T5927.023
    
    [GRAPHIC] [TIFF OMITTED] T5927.024
    
    [GRAPHIC] [TIFF OMITTED] T5927.025
    
    [GRAPHIC] [TIFF OMITTED] T5927.026
    
    [GRAPHIC] [TIFF OMITTED] T5927.027
    
    [GRAPHIC] [TIFF OMITTED] T5927.028
    
    [GRAPHIC] [TIFF OMITTED] T5927.029
    
    [GRAPHIC] [TIFF OMITTED] T5927.030
    
    [GRAPHIC] [TIFF OMITTED] T5927.031
    
    [GRAPHIC] [TIFF OMITTED] T5927.032
    
    [GRAPHIC] [TIFF OMITTED] T5927.033
    
    [GRAPHIC] [TIFF OMITTED] T5927.034
    
    [GRAPHIC] [TIFF OMITTED] T5927.035
    
    [GRAPHIC] [TIFF OMITTED] T5927.036
    
    [GRAPHIC] [TIFF OMITTED] T5927.037
    
    [GRAPHIC] [TIFF OMITTED] T5927.038
    
    [GRAPHIC] [TIFF OMITTED] T5927.039
    
    [GRAPHIC] [TIFF OMITTED] T5927.040
    
    [GRAPHIC] [TIFF OMITTED] T5927.041
    
                                    

</pre></body></html>
